<html>
<title> - THE PASSPORT BACKLOG AND THE STATE DEPARTMENT'S RESPONSE TO THE WESTERN HEMISPHERE TRAVEL INITIATIVE</title>
<body><pre>[Senate Hearing 110-177]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-177
 
THE PASSPORT BACKLOG AND THE STATE DEPARTMENT'S RESPONSE TO THE WESTERN 
                      HEMISPHERE TRAVEL INITIATIVE

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND
               ORGANIZATIONS, DEMOCRACY AND HUMAN RIGHTS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2007

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                     U.S. GOVERNMENT PRINTING OFFICE

38-747 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                 ------                                

              SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND
               ORGANIZATIONS, DEMOCRACY AND HUMAN RIGHTS

                     BILL NELSON, Florida, Chairman

RUSSELL D. FEINGOLD, Wisconsin       DAVID VITTER, Louisiana
ROBERT MENENDEZ, New Jersey          GEORGE V. VOINOVICH, Ohio
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHNNY ISAKSON, Georgia

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Harty, Hon. Maura, Assistant Secretary for Consular Affairs, 
  Department of State, Washington, DC............................     6
    Prepared statement...........................................    11
    Responses to questions from Senator Nelson...................    46
    Responses to questions from Senator Lugar....................    54
Lugar, Hon. Richard G., U.S. Senator from Indiana, prepared 
  statement......................................................     4
Nelson, Hon. Bill, U.S. Senator from Florida, opening statement..     1
Vitter, Hon. David, U.S. Senator from Louisiana, opening 
  statement......................................................     5

              Additional Material Submitted for the Record

Press Release of Hon. John F. Kerry, U.S. Senator from 
  Massachusetts..................................................    45
Letters submitted by Hon. George V. Voinovich, U.S. Senator from 
  Ohio:
    Letter to Secretary Condoleezza Rice, June 7, 2007...........    28
    Letter to Secretaries Condoleezza Rice and Michael Chertoff, 
      June 13, 2007..............................................    29
    Letter from the State Department, July 24, 2007..............    30
    Letter to Senator Daniel K. Akaka, chairman, Oversight 
      Subcommittee, June 13, 2007................................    31

                                 (iii)


                              ----------                              


                         TUESDAY, JUNE 19, 2007

                           U.S. Senate,    
  Subcommittee on International Operations 
                                        and
        Organizations, Democracy, and Human Rights,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Bill Nelson 
(chairman of the subcommittee) presiding.
    Present: Senators Bill Nelson, Feingold, Menendez, Webb, 
Lugar, Coleman, Voinovich, Murkowski, Isakson, and Vitter.

             OPENING STATEMENT OF HON. BILL NELSON,
                   U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. Good afternoon. It seems like there is 
a little bit of interest here in the subject matter of this 
hearing. And, indeed, it is something that has caused a great 
deal of consternation.
    Madam Assistant Secretary, I appreciate your willingness to 
come here today so that we can talk about what went wrong, how 
to get it fixed, and how it won't happen again. There's this 
huge backlog of passports. Some people have been waiting as 
long as 5 months for a passport. It's estimated there is a 
backlog of upward of 2 million passport applications. We've got 
to get this straightened out.
    We have the implementation of a new, good, policy, the 
Western Hemisphere Travel Initiative. It protects our borders, 
but it also protects American citizens while they are traveling 
away from home. But the processing delays are causing 
hardships, and because of that we've had to suspend the Western 
Hemisphere Travel Initiative. And what does that do? That 
doesn't make us secure, as the Western Hemisphere Travel 
Initiative intended. That law was passed at the end of 2004, 
and the State Department has had over 2 years to plan for, and 
implement, the new policy of requiring passports for traveling 
to Canada, to Mexico, and to the Caribbean.
    Madam Ambassador, you're going to find that there's a good 
deal of frustration that will be expressed here, because 
millions of Americans, in their frustration at not getting a 
passport, have turned only where they know where to turn, and 
that is to their Senator or to their Congressman. I can tell 
you that our offices are absolutely overwhelmed. But I want to 
tell you also that, thank goodness, you've got a bunch of 
dedicated people working on the line, working their little 
fingers to the bone, trying to process these passport 
applications. And so, I cannot say enough good things about 
what people on the line at the Department of State have been 
doing in cooperating with the staffs of the Members of Congress 
and the Members of the Senate in trying to bring about some 
relief for some of these folks.
    So, I want it nailed down right here that the State 
Department people who are down there in the trenches working 
are working as hard as they can. What we want to focus on is 
the managers. Why has this problem been mismanaged? Why do we 
have these frustrations and delays?
    Here's just a sampling from three people I met with 
yesterday in Tampa:
    A single mom whose son was in an automobile accident in 
Panama. His two buddies were killed, and he was seriously 
injured and went through two surgeries. She's having difficulty 
getting a passport so she can get to him to take care of him.
    A civic-minded couple that are raising money for cancer, 
and part of that fundraiser was that they were climbing Mount 
Kilimanjaro, and, of course, they got caught in the backlog, 
too, and they wouldn't have gotten their passport, had they not 
called us.
    A dedicated father trying to make sure that his daughter, 
who had been training in Orlando, can join the U.S. Olympic 
softball team in Europe.
    And then, of course, we have the problem of families that 
the passport application has been in for a month for the 
children, and the parents have to decide whether or not they 
have to leave the children behind because they can't get the 
passport.
    In the backlog of 2 million passport applications, many of 
those travelers have had to cancel their trips. And they've 
been planning months in advance. They've paid all the money out 
in advance. In some cases, they have nonrefundable tickets. 
They go about paying the extra 60 bucks to expedite things, and 
that doesn't do any good. And so, you have a mess.
    At the post office that I went to yesterday in Tampa, the 
Post Office Department has issued this press guidance so that 
all the people coming in there to apply for a passport, that 
there is a policy on refunds for expedited passport 
applications. This says the Department of State deeply regrets 
any inconvenience caused to travelers whose passports were not 
available in time for their planned travel. Travelers who have 
paid their $60 fee and have a reason to believe that they 
didn't get the expedited service should issue a written 
statement to the Department of State. Why don't we just change 
that policy? Why should they have to apply to get it back? 
Since there hasn't been any expedited service, why don't we 
just automatically start sending those folks their $60 back, 
instead of Senator Lugar and Senator Vitter and I having to 
pass something in law that says that you have to give it back? 
Why doesn't the Department of State just do that, as a matter 
of policy, instead of having them have to go through more 
paperwork hassle to get their 60 bucks back? Which, oh, by the 
way, $97 for a passport, plus 60 bucks, that's 157 bucks. For a 
family of four, that's over $600. That's getting pretty sporty, 
and, in and of itself, will cause a problem of people being 
able to travel.
    The jam began when the Western Hemisphere Travel 
Initiative, which was a recommendation by the 9/11 Commission, 
went into effect. And last January the rules were that you had 
to have a passport to go to Mexico, Canada, or the Caribbean. 
The current turnaround time now is in the range of 10 to 12 
weeks, and normally it would be 4 to 6 weeks. Half a million 
applications have been in the system for more than 3 months. 
And now, in order to reduce the backlog for the summer travel, 
the Department is temporarily scaling back implementation of 
that initiative until September 30, saying that you don't have 
to produce the passport to travel in those three areas in the 
Western Hemisphere if you can show that you have applied for 
the passport. But what happened to the policy, 2\1/2\ years 
ago, that said we're going to make America more secure by 
requiring a passport in the first place?
    Yesterday, I met a 78-year-old widow--she was told, even 
after we got into the situation, we were going to have to send 
her to the passport office in Miami--she lives in Tampa--which, 
when she left me, yesterday at about noontime, she was driving 
to--from Tampa to Miami. Initially, she was told that she was 
going to have to get in the line at 4 o'clock in the morning on 
the street in Miami, FL. We raised such a ruckus, that a 78-
year-old widow would be required to do this, that finally the 
Department said, ``We will schedule an appointment for her at 8 
o'clock in the morning.'' This isn't the way to do business.
    This subcommittee hopes that you're going to be able to 
address the State Department's response to the Western 
Hemisphere Initiative, and, out of our discussion, what we want 
you to do is to answer, that, if you knew in November that you 
had received 250,000 more applications than originally 
projected, and then, in January, knew that the problem had 
grown to 600,000 above your estimates, then why did it take the 
Department so long to act? Now, I understand, Madam Secretary, 
that you're one of the best in the business, that you are a 
career Foreign Service officer who has a magnificent record.
    And so, this isn't directed at you, personally. But I want 
to know who is accountable--because when I was in the military, 
I was taught that the captain of the ship was accountable and 
responsible for everything that happened on the ship--and that 
document, right there, my passport--and I open it up, and who 
is the captain of the ship? It says the Secretary of State of 
the United States of America. So, we want to know who's 
accountable and why this mess has happened.
    And we also want to know, to what extent the State 
Department feels that the private contractor is responsible for 
this. And why, with a 20-year service of a private contractor, 
did you suddenly change to a new private contractor? And how do 
you answer, when you say it's the private contractor's fault, 
that the private contractor says, ``No, it isn't, it's the 
State Department's fault''?
    So, what is the State Department going to do to remedy the 
problem? As you can see by the turnout here, there's 
frustration, because every one of us is inundated on people--
these cries of anguish that are coming.
    We'd like to know, also, how many have applied using the 
$60 fee. Is that 100,000? Is it a million? If it's a million, 
my goodness, you've suddenly got $60 million. And what are we 
going to do to get that money back to them? And then, what are 
you going to do to make sure that the backlog does not 
continue?
    And already we have--and we're just talking about air 
travel in the Western Hemisphere Initiative--we have already 
put off the land and the sea travel requirement of a passport, 
and now, over on the House side, in the Appropriations 
Committee, they've already gone through the drill of delaying 
that from January 2008 all the way to June 2009. Now, how does 
that serve the interest of the United States in protecting the 
homeland, which was the original intention of the 9/11 
Commission?
    And I say, again, to you, Madam Secretary, you are the best 
in the business. You are a career Foreign Service officer. 
You're reputation precedes you. I'm not picking on you. You're 
the courageous one that came here to give answers to these 
questions. But the emotion in my voice is being expressed for 
all of these here, and all of those out there that are not at 
this hearing, that are desperately looking for answers.
    So, let me turn to Senator Vitter.
    And, Senator Lugar, did you have an opening statement that 
you wanted to make?
    Senator Lugar. Mr. Chairman, I did, but I--in the 
expediency of time, I'll ask for it to be in the record in this 
proceeding.
    Senator Bill Nelson. OK, without objection.
    [The prepared statement of Senator Lugar follows:]

 Prepared Statement of Hon. Richard G. Lugar, U.S. Senator From Indiana

    I join in welcoming Assistant Secretary Harty to the committee. I 
am hopeful that our inquiry today will illuminate the problems 
experienced by many Americans who are attempting to secure their 
passports for important travel. Congress should be working closely with 
the State Department to reduce processing times, improve information 
for passport customers, and ensure that emergency cases are addressed.
    With a change in law occurring on January 23, 2007, thousands of 
Americans followed new rules and sought a passport for travel in the 
Western Hemisphere. However, their honest efforts ran into a 
bureaucratic system unable to handle the vastly increased demand. In 
many cases, processing times tripled from past years. This has led to a 
wave of desperate travelers appealing to congressional offices for help 
in salvaging vacations, business trips, and other travel.
    Passport inquires are now the No. 1 casework concern in my Indiana 
offices by a wide margin. I anticipate that this is true for most 
Senate offices. In recent months, I increased the number of staffers 
dealing with passports from one to seven and instituted e-mail and Web 
site features to help process requests and disseminate information.
    Although inquiries by my office to Passport Agency personnel and 
contractors have been treated courteously and pleasantly, the 
information provided to constituents and my staff was often erroneous 
or unhelpful. Constituents have been told that their passports were on 
the way only to find out days later that no meaningful progress had 
been made toward processing them. Other constituents reported that 
regardless of what time of day they called the Passport Agency, they 
were unable to connect with agency personnel about their application. 
The passport office in New Orleans, to which Indiana passport 
applications are sent, clearly is inadequately staffed.
    As a last-ditch option, my staff has guided Hoosiers who were set 
to depart within 48 hours to the Chicago Passport Agency. There, after 
a long drive, they could undertake the burdensome task of waiting in a 
line that stretched around the building, working their way through 
security, and then reapplying for their passport. For constituents who 
were not born in Indiana, or even the United States, and who had 
already sent in their only birth certificate with their original 
application, this option proved especially difficult. Some constituents 
were forced to pay the passport application fee a second time when they 
appeared in Chicago. Enduring this process, just hours before an 
overseas departure caused enormous anxiety for countless travelers.
    On June 6, I wrote to Secretary Rice to share the passport 
experiences of Hoosiers and appeal for urgent efforts to fix the 
system. I appreciate the administration's decision on June 8 to allow 
U.S. citizens traveling to Canada, Mexico, the Caribbean, and Bermuda 
to enter and depart from the United States by air with a government-
issued photo identification and proof of application for a passport. 
This temporary fix lasts through September 30, 2007.
    In my letter to Secretary Rice, I indicated that the State 
Department should not be reticent to ask Congress for whatever 
additional resources are necessary to make the passport process run 
smoothly. We want a first-class passport system that meets our security 
needs while facilitating the travel of Americans. This travel is 
essential to our foreign policy, our economy, and the cultural and 
educational life of our citizens.
    I thank the chairman and look forward to our discussion.

    Senator Bill Nelson. Senator Vitter.

   OPENING STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM 
                           LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman, for holding this 
hearing, because I certainly join you and everyone else in 
expressing how serious a crisis this is.
    All of us hear about these horror stories from our 
constituents, literally daily now. And so, I want to underscore 
how serious a crisis this is, and add my voice to the extreme 
concern about it.
    I really don't know where to begin; but certainly, again, I 
think all of us hear these stories directly from constituents. 
In my case, I have some who applied for their passports in 
March for a June trip with their church, and, despite thinking 
ahead and planning ahead, they were still forced to pay extra 
for expedited service in May, and they still had to drive to 
the FedEx depot the day before the trip to get the passports 
before leaving the country.
    Another constituent, who made a 7-hour drive from her 
hometown to New Orleans, where there was a passport office, 
stood in line for several more hours, drove 7 more hours back 
the day before her wedding so she didn't have to skip a 
honeymoon.
    And these are the success stories.
    Then there are plenty of failure stories that we hear all 
the time, constituents who spend hours waiting on hold, only to 
have the call dropped before ever speaking to a real person. My 
staff could not get through, themselves, for guidance or help, 
even on those lines dedicated to congressional staff. So, lines 
dedicated for congressional staff, my staff regularly couldn't 
get through.
    My staff talked to folks who, when they did get through to 
a real person, frequently were unable to help, unable to 
provide answers, unable to give any hope to those trying to get 
a passport to see family, attend a wedding, or go on a very 
long-awaited vacation.
    So, this is really inexcusable. My questions are probably 
the same as anybody's.
    No. 1: How could the Department and the contractors be so 
off on forecasting demand? I mean, I assume travel within the 
hemisphere has not increased 1,000 percent overnight 
unexpectedly. I assume it's been a steady growth and nothing 
dramatic has changed in the last year, so how could we be so 
completely off on the forecast?
    No. 2: How could we be so slow in responding to increased 
numbers once they were actually coming in?
    And I also want to put this in a broader context. I'm very 
concerned, because it's, yet again, another story of the 
complete failure of competence in government, and ineptness. 
And I have real concern, when we're living through this, and 
yet, you know, we're talking about still implementing the part 
of the program with regard to land and sea entries that's 
expected to involve four times the number of passports as we 
have in this current situation. We're talking about this when 
we're debating an immigration bill. I know this wouldn't be 
your bailiwick, per se, in terms of administration. We're 
debating an immigration bill that would require all sorts of 
IDs and new visas for millions of additional people, including 
12 million illegal immigrants in the country. This is just 
another example of ineptness that absolutely destroys 
Americans'--including mine--confidence in the Federal 
Government doing anything right and competently. And yet, 
we're--some of us, not my vote--but some of us are forging 
into, you know, experiments in legislation that would require 
agencies--in the immigration case, Homeland Security--to do 
things on a scale way beyond this by hundreds or thousands of 
times over. So, I'm really very concerned, and certainly want 
some immediate solution to the passport backlog, because this 
is an immediate and ongoing crisis.
    Thank you, again, for being here, and for being subjected 
to all these questions on behalf of your Department.
    Senator Bill Nelson. And thank you for being the designated 
hitter. Maybe we should haul up some of your other colleagues, 
but we'll wait and hear, on the basis of your testimony.
    Your written statement is entered as part of the record. We 
don't want you to read it to us. We want you just to talk to 
us, and then we'll get into our questions.
    So, Madam Secretary.

STATEMENT OF HON. MAURA HARTY, ASSISTANT SECRETARY FOR CONSULAR 
          AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Harty. Thank you so much, Mr. Chairman, Ranking 
Member Vitter, distinguished members of the subcommittee.
    I do thank you for your comments. I have a slightly shorter 
statement that I will put in for the record.
    Senator Bill Nelson. OK, but don't read it. Talk to us.
    Ambassador Harty. I certainly will talk to you, sir.
    I would also like to, in all candor, identify myself as the 
captain of this ship, with respect to the Bureau of Consular 
Affairs. And it is, in fact, our responsibility. We are charged 
with adjudicating passports. It's the most valuable document on 
the planet. We're responsible for adjudicating it in a way that 
makes it a process accessible to all Americans, and also in a 
way that makes sure that all--and only all--Americans who 
should have a passport get them. That is, we have a security 
element here. The adjudication of who receives a passport is a 
critical element of what we do.
    Demand is, as both of you--as all of you, I think, in the 
room know, know at this time--is at unprecedented levels, and 
so is the number of passports that we are, in fact, producing. 
In fiscal year 2005, we produced 10.1 million passports. Last 
year, we did 12.1 million passports. As of May 31 of this year, 
we've already done 10.3 million passports, a 33-percent 
increase over the same period the year before, and we're on 
pace right now to issue over 17 million by the end of this 
fiscal year.
    Sir, we regard ourselves as a service organization in the 
Bureau of Consular Affairs, and we set high standards for 
ourselves. It's what the American people expect, and, in fact, 
of course, deserve, of us. Throughout our history as an 
organization, we have, with rare exceptions, met those 
standards of service, and we are taking steps now to ensure 
that we do so just as soon as possible again. No one, Mr. 
Chairman, is more aware that over the past several months many 
travelers who have applied for a passport have not received 
that document in the timeframe that they expected, and, in some 
cases, have missed their trips. I deeply regret that, 
personally and professionally, and regard the current situation 
as untenable.
    So, with your permission, sir, I'd like to brief you on the 
current situation, in what we are doing now, what we will do 
over the longer term, to turn turnaround times around again.
    When Congress passed the Intelligence Reform and Terrorism 
Prevention Act, in December 2004, which established the travel 
documentation requirements that the Western Hemisphere Travel 
Initiative implements, we analyzed our figures. We also 
commissioned an independent study, which led us to predict that 
we would receive approximately 16.2 million passport 
applications in 2007. We ramped up capacity against that 
prediction. We hired 441 employees in passport services in 
fiscal year 2005, another 925 in fiscal year 2006, over 1,200, 
thus far, in 2007, a total of 2,588 in less than 3 years. I 
think we know that bureaucracy is not the most agile, and we 
have tried our best to be as agile as we could be. These 
figures, of course, represent both adjudicators--passport 
specialists--as well as contractors who perform the 
nonadjuducative functions, things that are not inherently 
governmental. I should point out that during this time we've 
also had significant attrition.
    Also, to get at this demand, we opened another passport 
agency in Colorado in October 2005. We expanded our footprint 
in Houston, in Chicago, in New Orleans, in Boston, and in 
Seattle. We made them as big as we could in the parameters that 
we faced. Our National Passport Center, up in Portsmouth, New 
Hampshire, went to 24/7 operations. Our mega center in 
Charleston is doing the same thing. We added shifts at most 
other agencies, and made the days extensive. Last week, we cut 
the ribbon, as you might have heard, on our new mega processing 
facility in Arkansas. We have been, Mr. Chairman, in perpetual 
forward motion since the passage of the law which created the 
new requirement.
    We had a significant setback. Hurricane Katrina had an 
impact on our operations. Before Katrina, our New Orleans 
Passport Agency processed approximately 20 percent of all of 
our overall workload. And in preparation for the WHTI, we 
planned to increase that to 25 percent, a quarter of our 
workload. Following Katrina, the New Orleans agency, which was 
out of commission for about 5 months and reopened in February 
2006, reopened with a capacity that was significantly reduced. 
So, right now, the good people in New Orleans at our agency are 
working hard, but they're processing 10 percent of the demand. 
We had counted on them for more. They have a lot of heart, and 
I thank you for the things you've said about them, because, 
only earlier today, I got an e-mail from a woman who said, 
``Today is my 30-year anniversary working for Passport Services 
in New Orleans, and I want to thank you for the privilege.'' 
So, we have people with plenty of heart out there. I thank you 
for what you said, Mr. Chairman.
    We projected we would receive 16.2 million applications in 
the course of FY07, but we are on pace to receive at least 1\1/
2\ million more than that.
    One of the things that we failed to predict was how quickly 
American citizens would choose to apply for a passport in 
recognition of the new law. A recordsetting, unprecedented 
demand in a compressed period of time really was the root of 
the immediate challenge. Applications increased dramatically in 
a very short timeframe. Just to give you an idea, in December 
of last year, before the requirement was in place, we received 
1 million applications. Then demand spiked sharply; in part, 
because we actually tried to advertise the Western Hemisphere 
Travel Initiative. So, in January, we saw 1.8 million 
applications; in February, another 1.7 million; in March, 1.997 
million--5.4 million applications in a very short period of 
time. Again, I think part of that was our extensive outreach to 
make sure that American citizens knew about the new 
requirement.
    But I think there's more to it than that, sir, in all 
candor, and it's hard for us to put a number against this. 
American citizens, due to our outreach, and, I think, in fact, 
due to a lot of the media coverage of this new requirement, 
have applied for passports in droves, and it is not always 
because they mean to travel. American citizens have realized 
this is the premier document on the planet, but also in this 
country, to make sure that, when they apply for a Federal 
benefit, they can prove who they are and that they're an 
American citizen. If they apply for a job, they can prove who 
they are and that they're a U.S. citizen. I had one of my 
colleagues pull a box of 200 applications for me yesterday just 
to look, because we ask, on each application: Where are you 
going, and when are you going? Out of 200 applications, 20 had 
travel plans. Twenty out of 200. I did this 3 weeks ago. It was 
only a box of 60 at that point. Out of that box, four said they 
had immediate travel plans or travel plans at all. Hard to 
quantify, no excuse, but it is a new phenomenon.
    I think one of the things that happened when this law was 
passed and when we began to advertise it is, we heard--we asked 
Americans to change their behavior, to begin to think 
differently, not only about a border crossing, but to think 
about the importance of a passport in other ways. I took a trip 
not so long ago, sir, from Washington, DC, to Arizona. A number 
of people on that flight--and I'm sure you see it, yourselves, 
when you travel--used a passport, even for domestic travel, to 
prove they are who they say they are, and that they are, in 
fact, American citizens.
    As a result of all of this demand, sir, receipts far 
exceeded, as you know and have quantified, our ability to keep 
pace with them in the traditional timeframe. It began to take 
longer to process applications. It moved to 10 to 12 weeks, 
where it is right now. We have updated, regularly, our Web 
site, on that subject. We've done a number of other things. We 
worked with our call center and our lockbox facilities at the 
highest levels, to ramp up capacity. We built an overflow call 
center at our Kentucky Consular Center, and put 100 people on 
the line right away. We built another one here at the State 
Department. All agencies are working extended hours, weekends 
and evenings. We stood up another task force at the State 
Department itself to adjudicate applications. That's people who 
are working their day jobs, and then coming at night and on 
weekends, and others not doing their day jobs, and we've done 
80,000, just here at the State Department, in the task force 
that we set up.
    We implemented mandatory overtime. We suspended, for the 
time being, all noncritical training for existing employees. We 
are continuing to hire aggressively. We dispatched teams of 
passport specialists to the exceptionally high counter-volume 
agencies, so that they could assist with the walk-in 
applications that we had. We also accelerated plans for 
expansion of new facilities to accommodate the increased staff.
    As a result of these efforts, even as we are receiving 
higher numbers of applications, we're issuing record numbers of 
documents, an average of 1.5 million per month, 1.6 million in 
May.
    We know that the great majority of people who apply for 
passports are getting them in time to travel. We recognize 
that's not good enough. We recognize that we have to do better 
than that for everybody who applies for a passport.
    In light of the current situation, sir, Secretaries Rice 
and Chertoff agreed that DHS would use its existing authority 
to exercise flexibility in determining the documentation 
required of American citizens to enter and depart the United 
States during the transition phase of the WHTI air rule. So, 
until September 30 of this year, Americans traveling to Canada, 
to Mexico, to Bermuda, and to countries in the Caribbean, who 
have applied for, but not yet received, their passports, can 
reenter the United States by air with a Government-issued photo 
ID, as well as the Department of State official proof of 
application, which they can pull off of our Web site. Since we 
made that announcement, 371,000 Americans have availed 
themselves of that particular page, so they are, in fact, using 
this.
    Since we announced that policy, on June 8, we've conducted 
numerous briefings, public outreach activities to inform the 
public, and DHS has done the same with the airlines. Our 
embassies have worked extensively with the countries in 
question so that we see that--Mexico, Canada, the Bahamas, 
Aruba, the Dominican Republic, and Jamaica, all have agreed to 
accept this, and these are countries of--largest receiving 
countries for American tourist travel. All have agreed to 
accept this flexible transitional phase that we are going 
through now. So, people are beginning to make their trips.
    And, while we will, of course, process to completion all of 
the applications on hand, this particular approach took a 
little bit of pressure off, and it allows us to reach in and 
get to the passport applications of those who still need the 
passport. If you needed it yesterday for Mexico, but the 
flexible approach allows you to take the trip anyway, I'm going 
to be able to reach in much more readily and get the passport 
application of somebody going to Europe or another part of the 
world who still needs that passport, even as we speak.
    I know that many people have had trouble getting through 
the line to the National Passport Information Center. It's been 
a major source of frustration to your constituents, to you all, 
I'm sure, and certainly to myself, as well.
    The Center has increased staff now to nearly 500. They've 
promised me 800 customer service representatives by early 
August. They've extended operating hours, and they've added 432 
additional high-capacity telephone lines so that they can get 
to those calls.
    Mr. Chairman, it's clear to us that the WHTI implementation 
means a permanent increase in passport demand. The 
recordbreaking numbers that we have seen are likely not an 
anomaly. Demand is going to continue to grow. We have another 
workload study underway now, taking some of the things we've 
learned, and we will--we have some informal predictions that we 
will work together through that study so that we can get the 
best numbers we possibly can. We're looking at approximately 23 
million applicants in 2008, and as high as 30 million by 2010. 
We are committed to building the capacity to meet that demand.
    Additional resources are essential. On June 8, we notified 
Congress that the Department plans to devote an additional 
nearly $40 million, for FY07, to hire an additional 400 
personnel this fiscal year, and to fund the expansion of our 
National Passport Center in Portsmouth and our Miami passport 
agency. I have walked the space in Miami. It'll go from 18,000 
square feet to 28,000 square feet in a new and better building 
and in a safer neighborhood. I've looked at some space in 
Portsmouth, myself, and we are in the GSA fast-track process of 
looking--or of getting space that will do the trick for us.
    We're hiring numbers--numbers of new employees at record 
pace, and we're seeing--I hope you're seeing, sir, a 100-
percent--1,000-percent effort, even--from our people in the 
field. I think they're terrific. As some staffers have already 
told us--specifically from your own office, Sherry Davich and 
Peggy Gustav and Karen Cully--have been terrific, and they have 
graciously noted the efforts of some of our people to help 
them, as well.
    I think the world of U.S. passport production has changed 
fundamentally, and, with the passage of the Intelligence Reform 
and Terrorism Prevention Act and the WHTI, we are committed to 
meeting the American public's demand for reliable, secure 
travel documents. We are committed to achieving, for our 
Nation, the security and efficiency benefits of WHTI. We have 
committed to working tirelessly to improve the efficiency, the 
transparency of the passport process, while continuing to 
ensure the integrity of the process and the physical document 
itself.
    I thank you very much for your patience, for the 
opportunity to be here today to take your questions, to take 
your suggestions, to discuss ways forward as we continue to try 
and help the American traveling public.
    Thank you, sir.
    [The prepared statement of Ambassador Harty follows:]

 Prepared Statement of Hon. Maura Harty, Assistant Secretary of State 
       for Consular Affairs, Department of State, Washington, DC

    Chairman Nelson, Ranking Member Vitter, distinguished members of 
the subcommittee, I appreciate this opportunity to discuss how the 
Bureau of Consular Affairs is working to meet the needs of American 
citizens for reliable, secure passports.
    The Bureau of Consular Affairs (CA) is charged with adjudicating 
applications for one of the most valuable travel documents on the 
planet: The U.S. passport. We are responsible for issuing passports in 
a manner that ensures that the application process is accessible to all 
Americans, and that only those entitled to the privileges and benefits 
of U.S. citizenship, including a U.S. passport, receive one.

  <bullet> We issue passports with state-of-the-art security features, 
        including an electronic chip and biometrics to make the 
        document harder to forge, alter, or misuse. We have been 
        issuing these ``e-passports'' since August 2006, and are 
        producing them at each of our 18 passport agencies around the 
        country;
  <bullet> We issued 10.1 million passports in fiscal year 2005 and 
        12.1 million last year. In May 2007, we issued 1.66 million 
        passports, a record high. As of May 31, we have issued 10.3 
        million passports this fiscal year--a 33-percent increase over 
        the same period last year--and are on pace to issue over 17 
        million by the end of the year;
  <bullet> We worked closely with our colleagues in the Department of 
        Homeland Security to implement the Western Hemisphere Travel 
        Initiative (WHTI) Air Phase, which took effect on January 23, 
        2007. Polling data indicate strong public compliance with and 
        support for this measure to enhance security and efficiency at 
        U.S. borders.

    As a service organization, we set high standards for ourselves in 
CA; it is what the American public expects and deserves. Throughout our 
history as an organization we have, with rare exceptions, met those 
standards and we are taking the steps necessary to ensure that we 
return to meeting those standards just as soon as possible.
    No one is more aware than I of the fact that, in the past several 
months, many travelers who applied for a passport did not receive their 
documents in the timeframe they expected. In some cases, the passports 
did not arrive in time for planned travel. I deeply regret that. All of 
us in CA are dismayed by such stories--and we consider the current 
situation untenable.
    I am confident that we will correct this situation, and we are 
pursuing several strategies toward that goal. I would like to brief you 
on the current state of affairs, and what CA is doing now and over the 
longer term to improve our turnaround time.
       how did we get here? passport receipts exceed expectations
    We have been planning for increased passport demand since Congress 
passed the Intelligence Reform and Terrorism Prevention Act of 2004 
(IRTPA), which included a provision requiring all travelers to have a 
passport or other combination of documents establishing identity and 
citizenship to travel into and out of the United States.
    Following passage of IRPTA, we had 2 years to plan for the expected 
increase in passport demand. First we analyzed our own figures. We also 
commissioned a survey conducted by an independent contractor, which 
predicted that we would receive 16.2 million passport applications in 
FY 2007. We ramped up capacity by adding staff, expanding facilities, 
and enhancing service.
Additional Staff
    We hired 441 employees in Passport Services in FY 2005, 925 in FY 
2006, and 1,222 thus far in FY 2007--a total of 2,588 in less than 3 
years. These figures include passport adjudicators and contractors who 
perform critical nonadjudicative functions at our passport agencies.
Expanded Facilities
    In October 2005, we inaugurated the Colorado Passport Agency to 
address the travel needs of citizens throughout the Rocky Mountain 
region. In October 2006, we contracted for a mega-processing passport 
center in Hot Springs, Arkansas, and opened it 120 days later in March 
2007. We cut the ribbon on the Arkansas Passport Center (APC) last 
week, after giving it a little bit of opportunity to get up and 
running. APC will be able to produce 10 million passports annually when 
it reaches full capacity later this year.
    In November 2005, we expanded our lockbox service with two sites, 
one in Delaware and another in California, which operate 24/7. At the 
lockboxes, applications are sorted and fee checks are deposited. The 
lockboxes then forward the applications to our 18 passport facilities 
around the country for processing. Lockboxes are a U.S. Government best 
practice that streamlines the application process for a number of 
government interactions. By expanding lockbox coverage from one central 
site to two, we have introduced greater service capacity and redundancy 
of passport application processing operations, the latter of which will 
allow us greater flexibility in the event of a crisis.
    In January 2006, we added a second shift at our Charleston Passport 
Center (CPC) and implemented 24/7 operations at our National Passport 
Center (NPC) in New Hampshire. We also increased the size of our 
Houston and New Orleans passport agencies, have identified space for a 
much larger replacement facility in Miami and are engaged with the 
General Services Administration right now on a fast-track search for 
additional space in order to expand our National Passport Center in 
Portsmouth.
Enhanced Service
    We implemented a Centralized Appointment System, which allows 
customers to schedule appointments through the National Passport 
Information Center (NPIC) for any of our domestic agencies nationwide. 
We also implemented an online status check service. This service, 
available through the CA Web site, travel.state.gov, allows customers 
to check the status of their passport application from their desktop.
        the situation in 2007--when phase i of whti took effect
    Our projection was for 16.2 million passport applications in FY 
2007, and we planned against that projection. In fact, applications 
increased dramatically in a very short timeframe, and Americans applied 
for passports in record-setting numbers. In the final month before WHTI 
implementation, December 2006, we received approximately 1 million 
applications. In response to our outreach and public education effort 
regarding WHTI, we then received 1.8 million applications in January 
2007, 1.7 million in February, and 1.997 million in March. Essentially 
5.4 million applications in a very short period of time greatly 
stressed the system. We simply did not anticipate American citizens' 
willingness to comply so quickly with the new law.
    In addition, many people who indicate no overseas travel plans have 
applied for a passport because they see it as the premier citizenship 
and identity document, one that allows the bearer to board an airplane, 
prove citizenship for employment purposes, apply for federal benefits, 
and fulfill other needs not related to international travel.
    The bottom line: The increase in demand was sharper and more 
compressed than we expected. Receipts far exceeded our ability to keep 
pace with them in our traditional timeframe. As a result, it began to 
take longer to process applications. Our average processing time 
lengthened from 6 weeks in December, to 10 to 12 weeks today.
    We have taken extraordinary measures to address this issue and 
respond to the public. We set up telephone and adjudication taskforces 
to supplement our regular operations and handle the overflow in the 
volume of calls and of work. We brought back retired annuitants. We 
expanded hours--having agencies work evenings and weekends. Qualified 
employees from throughout the Bureau of Consular Affairs have 
volunteered their time, or been taken off of other duties to work on 
passport issues.
    There are 2.95 million applications currently pending at our 
passport agencies. At our current rate of issuance, this represents 
approximately 8 weeks' worth of work on hand. We are processing most 
routine applications within 10 to 12 weeks and expedited applications 
within 2 to 3 weeks. We do not expect these processing times to 
increase. For faster service, our counter agencies continue to provide 
same-day service to as many travelers as we can accommodate with 
evidence of imminent departure dates. We have and will continue to 
regularly update these estimates on our Web site and through our 
communications with the media.
    At the same time as we are receiving record numbers of 
applications, we are issuing record numbers of passports. We issue an 
average of 1.5 million passports per month; in May, we issued 1.6 
million passports. The great majority of Americans who apply for 
passports are getting them on time. But we recognize that most is not 
good enough. So we are doing something about it.
                addressing record demand: the short term
Flexible Interpretation of Documentation Requirements
    To ensure that travelers would be able to carry through with their 
travel plans, we and the Department of Homeland Security agreed that 
additional steps were warranted. On June 8, State and DHS announced 
that DHS would use its existing authority to exercise flexibility in 
determining the documentation required of American citizens to enter 
and depart from the United States during this continuing transition 
phase of WHTI Air Phase implementation.
    Under these temporary measures--which will be applied through 
September 30, 2007--American citizens returning from Canada, Mexico, 
Bermuda, or countries in the Caribbean region, who have applied for, 
but not yet received, their passports can reenter the United States by 
air with a government-issued photo identification and Department of 
State official proof of application for a passport. Children under the 
age of 16 traveling with their parents or legal guardian will be 
permitted to travel with the child's proof of application status.
    As official proof of application for a passport, travelers can 
present the printout of the online status check that the traveler can 
make at www.travel.state.gov. The printout shows that an application 
has been received by our Office of Passport Services.
    This temporary measure is designed to accommodate U.S. citizen 
travelers returning to the United States. This accommodation does not 
mean that Americans are exempt from meeting the entry requirements of 
individual countries. Entry requirements for those countries remain in 
effect. We have consulted with the governments of countries affected by 
WHTI and many of them also will be able to take a flexible approach. We 
continue to recommend, as we have always done, that travelers verify a 
country's specific entry requirements before departure. Contact 
information is included in the Consular Information Sheets we maintain 
for every country and which are available at www.travel.state.gov.
    Since the June 8 announcement, my colleagues in the Bureau of 
Consular Affairs and I have conducted numerous briefings and other 
public outreach activities to inform the public about this 
accommodation. DHS' Customs and Border Protection agency briefed air 
carriers. We stay in frequent communication with the travel and tourism 
industry, and with our passport agencies, and passport acceptance 
facilities around the country to get feedback and stay abreast of 
public concerns.
    The joint State-DHS announcement had an immediate impact. On 
Monday, June 11, more than 61,000 users accessed the Internet site from 
which proof of a pending passport application can be obtained. The 
number of telephone and e-mail inquiries to our National Passport 
Information Center declined precipitously. It is true that there were 
some software issues that prevented a small number of people from being 
able to obtain the proof of application they needed; we developed a 
workaround that appears to be working.
    Flexibility in the WHTI document requirements will help us process 
more rapidly the applications we have on hand by allowing us to focus 
on those travelers who must have a passport to travel. We will, of 
course, process to completion all applications on hand; we expect to 
work through the existing backlog by fall. We are redoubling attention 
to hiring and training additional staff and plan to finish facility 
expansions at several of our agencies.
Refunds for Expedite Fees
    Recently, a number of questions have arisen about refunds--in 
particular for travelers who paid the expedite fee. Let me turn now to 
that issue. We are aware that due to the enormous increase in passport 
demand and lengthening of turnaround times, many citizens opted to pay 
for expedited service. I want to assure you today that everyone who 
paid for expedited service had their application effectively ``moved to 
the front of the line.'' In spite of our best efforts, some travelers 
who paid for expedited service did not receive their passport within 
the timeframe we promised--2 to 3 weeks. We sincerely regret that and 
we will consider, on a case-by-case basis refund requests from 
customers who paid for expedited service and have reason to believe 
that they did not receive expedited service.
Strategies to Increase Passport Production
    In addition to these measures to help travelers, the Bureau of 
Consular Affairs is working flat-out to increase passport production.
            Extended hours
  <bullet> We expanded the hours of operation at all of our passport 
        agencies, including evenings and weekends; counters are open on 
        Saturdays for emergency appointments, which we are scheduling 
        through our call center.
  <bullet> NPC and CPC, which together issue over 50 percent of all 
        passports nationwide, are both operating 24 hours in three 
        shifts per day. Several agencies now operate two shifts.
  <bullet> We instituted mandatory overtime and suspended all 
        noncritical training and travel for passport staff until 
        further notice.
            Additional staff
  <bullet> We are aggressively recruiting staff. We brought 259 
        government and contract employees on board in the last 3 
        months. We plan to hire up to 800 new government employees and 
        750 to 800 contractors within the next year. Government 
        employees can adjudicate passport applications, while contract 
        staff perform critical support functions to print and mail out 
        adjudicated passports.
  <bullet> We obtained an OPM exemption to the hiring cap for Civil 
        Service annuitants, so that we can bring back experienced and 
        well-trained retired adjudicators while we continue to recruit 
        and train new passport specialists. Ninety retirees are in the 
        pipeline to return to work in passport agencies where, in 
        addition to helping with the workload, they will provide 
        critical management support as hundreds of new employees 
        complete training and begin work.
  <bullet> Qualified State Department employees are volunteering to 
        help process passport applications. These volunteers supplement 
        the Department's corps of passport specialists and are working 
        two shifts during the week and all day Saturday and Sunday, to 
        optimize existing equipment and space resources. They have 
        approved over 80,000 passport applications since mid-March.
  <bullet> We dispatched teams of passport specialists to exceptionally 
        high volume passport agencies to assist with walk-in applicants 
        and to process pending applications. These teams also provide 
        customer support, including locating and expediting 
        applications of customers with urgent travel needs.
Response to Increased Call Volume
    In response to heavy call volume, the NPIC, our call center, 
increased staff to over 400 customer service representatives and 
extended operating hours. I am aware that its lines are oversubscribed, 
and that this has been a source of frustration to your staffs and the 
general public. The number of telephone inquiries has dropped, but the 
call volume remains high. Our call center has recently installed 18 
additional high-capacity lines, each of which carries 24 separate 
telephone lines, for a total of 432 new lines. This will increase the 
volume of telephone calls NPIC can handle. We continue to work with 
NPIC to improve the service.
    To supplement NPIC, we established a temporary phone task force at 
the Department. State Department employees are volunteering to provide 
information, respond to urgent requests, and help Americans get their 
passports. We also stood up a temporary call center at the Kentucky 
Consular Center (KCC), staffed with approximately 100 operators, 
working two shifts.
    We have also established an e-mail box, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="145a445d5739575b5a535467607560713a737b62">[email&#160;protected]</a>, and 
installed additional high-capacity lines dedicated to congressional 
inquiries at NPIC, to better handle your constituent needs.
    We believe the measures we have already taken will give us the 
time, staffing, and physical capacity to be able to process all of the 
applications that have taken longer than normal to complete. We hope to 
be well on our way to returning to our normal processing times by 
September 30, 2007.
               addressing record demand: the longer term
    As we look to the future, it is evident that implementation of the 
Western Hemisphere Travel Initiative will bring with it a permanent 
increase in the demand by U.S. citizens for an international travel 
document. The record-breaking demand we see today is not an anomaly; 
demand will continue to grow. We currently project the demand for 
passports to be approximately 23 million in 2008, and as high as 30 
million by 2010. Over 78 million Americans currently have passports--
somewhat more than 25 percent of our citizens. Americans will continue 
to need secure documentation of their nationality and identity.
    Additional resources will be needed. The Department sent on June 8 
a formal Congressional Notification regarding plans to reprogram nearly 
$37,000,000 for the FY 2007 Border Security Program. We will use the 
additional funds to hire 400 new passport adjudicators this fiscal 
year, and fund expansion of NPC and the Miami Passport Agency.
    We are also implementing long-term strategies to ensure we have the 
capacity to meet higher demand and provide Americans with passports in 
a timely and secure manner. Chief among these is a new approach to 
passport production represented by the Arkansas Passport Center (APC). 
APC differs from our other passport agencies in that it focuses solely 
on printing and shipping passports. The files of applications reviewed 
and adjudicated at other agencies are transmitted electronically to 
APC, which prints and ships the passports. This approach requires that 
we install new software at our existing passport agencies to permit 
remote passport issuance. We have installed the software at seven 
agencies, and expect to complete conversion of all 17 by the end of 
September.
    APC has already produced 130,000 passports using this system. As I 
noted earlier, when it reaches full capacity, slated for the end of 
2007, it will be able to produce up to 10 million passports annually.
    The centralization of passport book personalization frees up space 
and personnel at our existing passport agencies so that they can focus 
on the critical areas of customer service and adjudication, and process 
more passport applications. The agencies that have begun remote 
issuance are already reporting significantly improved efficiency.
    We are increasing capacity at existing passport agencies, as well. 
Expansions are in the works for the Seattle, Miami, Boston, and 
Washington agencies, and we will be acquiring additional space for the 
National Passport Center to expand its operations and add redundancy to 
the passport system. We hope to complete these renovations and 
expansions by the end of this year.
    Just as important as increased production numbers is the need to 
maintain the high quality and integrity of the passport process. As we 
bring on large numbers of new staff, we are making provisions to 
continue to provide them with excellent training. We have secured space 
to establish a Western Consular Training Center to be colocated with 
our Colorado Passport Agency in Denver. With the large numbers of new 
employees we expect to hire over the next 2 years and the need for 
ongoing training of current employees, we need to have more than one 
training site.
                               conclusion
    Mr. Chairman, the world of U.S. passport production has changed 
fundamentally. The Bureau of Consular Affairs has changed with it. We 
are committed to meeting the American public's demand for reliable, 
secure travel documents. We are committed to achieving for our Nation 
the security and efficiency benefits of WHTI. And we will continue to 
work tirelessly to improve the efficiency, transparency, and integrity 
of the passport process.
    We appreciate the support and understanding we have gotten from you 
and your staffs as we work to meet new challenges. We hear from you 
regularly--and we have heard your message. We have and we must continue 
to work hand in hand to resolve specific cases, but also to chart a 
course for the future that will give the American public faith in our 
ability to deliver. We look forward to working together with you to 
achieve our shared purpose to help American citizens to travel, while 
guaranteeing the security of our Nation.
    I thank you for this opportunity to discuss the current situation 
with regard to U.S. passports and what we are doing to meet 
unprecedented demand. I am happy to answer any questions you may have.

    Senator Bill Nelson. You didn't say anything about the 
vendor. Do you want to share that in your remarks?
    Ambassador Harty. I'm sorry, sir, about?
    Senator Bill Nelson. The vendor.
    Ambassador Harty. The vendor.
    Senator Bill Nelson. The contractor.
    Ambassador Harty. I believe you're referring to the lockbox 
facility, sir. On a very regular basis, we share with our 
lockbox facility partners our estimates of where numbers are 
going. Frankly, we did public relations work and public 
outreach to make sure that Americans knew about the 
requirement, and we saw a bump-up, which initially we believed 
to be simply the lead-up to January 23. It went larger than 
that. And so, in January we began to realize that there was an 
issue here that wasn't an anomalous blip for a short period of 
time.
    And so, sir, I went there myself. I've been there a couple 
of times over the course of my time in this job, but I went 
there when we realized this. I found a group of people who I 
have looked in the eye, who I find are committed, who I have 
talked to on the phone, who I have badgered, who probably have 
limited enthusiasm for taking my phone calls. I also found a 
group of people who worked themselves to the bone. It, like in 
the Government, isn't always as easy to get good people 
identified, cleared, trained up. And the clearance is an issue, 
because we are asking people--vendor, contractor for us, U.S. 
Federal Government employee--to deal with people's identity 
documents. We need to know that there is somebody who has a 
public-trust clearance, who is somebody who we can trust to do 
this work. And so, yes, they went from a 24-hour turnaround 
time to something significantly greater than that. But, while 
they were doing that, I literally watched them build more 
space, hire more people, figure out, with us, ways we could do 
this work together and differently, and they are back to that 
24-hour turnaround time.
    I don't think, sir, I get any style point--for pointing at 
somebody else. I'm the captain of the ship.
    Senator Bill Nelson. OK.
    Since we have such a huge turnout here, is it all right 
that we have a 5-minute round? And I'm going to call on people 
in the order in which they came, regardless of party.
    Madam Secretary, in your comments for the record, you 
state, ``We simply did not anticipate American citizens' 
willingness to comply so quickly with the new law.'' If you had 
over 2 years advanced warning, and if you knew how many people 
traveled to Canada, Mexico, Bermuda, and the Caribbean--
therefore, you would know how many were going to be applying to 
get a passport under the new Western Hemisphere Travel 
Initiative--so, how can you say that you didn't have any idea 
that you were going to have all of these new applications for 
passports?
    Ambassador Harty. Thank you for the question, sir.
    In fact, it is just simply a question of the 3-month period 
of time. We predicted 16.2 million based on our study with 
BearingPoint--and BearingPoint, in doing that study, talked to 
Homeland Security, Commerce, travel and tourism, airlines. We 
did the same things. We simply did not foresee 5.4 million 
people applying in 3-months' time.
    But, sir, again, I believe I mentioned that we're seeing an 
incredible number of people who are indicating that they have 
no travel plans. I think, in some ways, we drummed up business, 
and more business than we had anticipated.
    Senator Bill Nelson. OK, now----
    Ambassador Harty. It was a mistake, sir.
    Senator Bill Nelson. I'll accept that. People would like to 
have this valuable document, because you reminded them about 
it. That is a valuable document. So--now you know that you're 
going to have to have X number of people having a passport that 
didn't have one before. You know what the number is, because 
you can calculate it as to who traveled within the last 12 
months to those areas that are going to require the passport. 
So, why didn't they, or your vendor, or somebody, have that 
anticipation of the surge?
    Ambassador Harty. Sir, it was a miscalculation on the size 
of the surge.
    Senator Bill Nelson. OK. but who miscalculated?
    Ambassador Harty. I take responsibility for it, sir. We did 
our best evaluation, based on a report by a company that is 
trusted and well known. They appeared to do a thorough job. We 
looked at our own, sort of, historic numbers. We looked at the 
numbers of people who revalidate their passports. We made a 
good-faith effort. We came up with 16.2. In fact, it turned out 
not only to be about a million and a half higher than that, as 
it appears now, but it was in a very compressed period of time.
    Senator Bill Nelson. OK. You accept the responsibility.
    Ambassador Harty. I do, sir.
    Senator Bill Nelson. All right. Tell us, what are you going 
to do about the 60 bucks?
    Ambassador Harty. Sir, you're right that we have an 
expedite process that took longer than we wanted it to, took 
longer than ever we meant it to. The expedite process did, in 
fact, ensure that you went to the front of that queue. Although 
it took longer than we wanted it to take, expedited passports 
have moved to the front of the queue all over the system. So, I 
take your point about the question that you asked in your 
opening remarks. And so, we will certainly look at that, and I 
will report back to you--I actually need a little bit of, sort 
of, help with evaluating the question that you raised earlier, 
but I will----
    Senator Bill Nelson. Well----
    Ambassador Harty [continuing]. Look, and I will get back to 
you.
    [The written information from the State Department 
follows:]

    Due to unprecedented demand, some U.S. citizens who applied for 
passports on an expedited basis by paying a $60 fee over and above the 
normal passport fee, did not receive their passport in the timeframe in 
which they expected to have it. After we examined several options to 
determine when and if to provide refunds for certain expedited 
applications, the Department determined that the most effective policy 
would be to continue to have applicants apply for refunds when they 
have reason to believe that they did not receive expedited service. The 
State Department will then address each refund request carefully on a 
case-by-case basis.
    As of July 18, 2007, a total of 3,829,913 expedited passport 
requests have been received and acted upon in calendar year 2007; our 
passport agencies and passport centers have issued 2,716,448 expedited 
passports, 71 percent within 3 business days of receiving the 
applications. A total of 3,286,751 passports (86 percent) were likely 
to have been in customers' hands within 3 weeks of them having applied, 
the period outlined on the State Department Passport Web site.
    A total of 543,162 expedited passports out of 3,829,913, 
approximately 14 percent, were not processed within 3 weeks. Even then, 
these individuals still received expedited treatment and most had their 
passports in hand by the date they specifically requested on their 
application. In the face of unprecedented demand (more than 40 percent 
increase over last year), those who requested expedited service did 
receive priority over the millions of other Americans who applied for 
passports at the same time. The expedited applications were 
automatically given a higher priority in the queue; these individuals 
received much faster service than the applicant who did not pay for 
expedited service and whose wait climbed at one point to 12 weeks. To 
further ensure expedited service, the Department has been paying for 
expedited passports to be mailed via FedEx and has not, unlike past 
practice, asked customers to cover this additional cost.
    In reaching the conclusion to refund on a case-by-case basis, there 
were several options.
    The first would be to issue no refunds at all given the 
unprecedented demand. This option did not merit consideration.
    The second would have been to refund the fee paid by every 
applicant who requested expedited passport service, regardless of how 
fast the requester received the passport. We do not believe that 
providing a blanket refund automatically to all applicants would be 
either appropriate or equitable.
    A third option is to provide refunds to applicants who did not 
receive their passports by the date they requested on their 
application. The Passport staff was constantly resorting and queuing 
applicants in order to provide those with the greatest/earliest need, 
the fastest service. Thus, while some applications were not processed 
within 3 days, the passport was still received prior to the date the 
applicant requested.
    A fourth option could be to have those who paid the fee and believe 
they did not receive expedited service request a refund. Our Web site 
already contains instructions on how to apply for a refund via e-mail. 
We will review each request thoroughly and provide timely refunds to 
those who meet the requirements.

    Senator Bill Nelson. Well, this was handed out in your name 
yesterday.
    Ambassador Harty. Yes, sir.
    Senator Bill Nelson. And it says you have to apply for the 
refund.
    Ambassador Harty. Uh-huh. Uh-huh.
    Senator Bill Nelson. Why----
    Ambassador Harty. That is----
    Senator Bill Nelson [continuing]. Why put that additional 
burden on them?
    Ambassador Harty [continuing]. That is the process we have 
had in place for years, sir. We do expedite, and have done 
expedite refunds for a number of years. I just flatout don't 
know if there is a--I don't want to misspeak at all today--I 
don't know if there is some legal requirement for somebody to 
come to me before I give them money back that's gone into the 
Federal Treasury. We will----
    Senator Bill Nelson. Does that----
    Ambassador Harty [continuing]. Look, sir.
    Senator Bill Nelson. Does that 60 bucks go into the 
Treasury, or does it go into the State Department?
    Ambassador Harty. The 60 bucks, the expedite fees, goes to 
the State Department. Out of a $97 passport application, $18 of 
that goes to the Bureau of Consular Affairs.
    Senator Bill Nelson. You know what a cynic would say. A 
cynic would say that that's an additional way for you to raise 
money.
    Ambassador Harty. A cynic would say it, sir. But I hope 
that if I leave you with nothing else today, I leave you with a 
sense that there's nothing cynical in our desire to be the best 
public servants we can be.
    Senator Bill Nelson. Well, think about getting that money 
back to people, because they have paid for a service----
    Ambassador Harty. Understood, sir.
    Senator Bill Nelson [continuing]. They have not received, 
so they shouldn't have to apply to get the money back.
    All right. Senator Lugar, the ranking member and the 
immediate past-chairman of this committee.
    Senator Lugar. Thank you very much, Mr. Chairman.
    What is the current status of affairs today? What is the 
current workload for passport offices, are they up to date?
    Ambassador Harty. Sir, there is always an ample amount of 
work in the system, throughout the system. Every month, for 
instance, as 1.5 million go out, a certain number come in. 
Right now, we've got just under 3 million passports in the 
process of being adjudicated and shipped out to people. We will 
send out passports every day. We will get more in every day. 
So, it's just under 3 million in the system now.
    We are also just entering what is historically, sort of, 
the low season. And so, we are hiring an awful lot of 
additional personel--hired some already, continue to hire, we 
hope, 400 more before the end of this fiscal year. With us 
entering the low season and us hiring more people, with our 
continuing with the expanded hours, with our continuing with 
the tremendous amount of overtime work that is being done, with 
our hiring retired employees, with our hiring retired civil 
service and Foreign Service employees, we're whacking down that 
inventory, if you will, that workload in progress, just as 
quickly as we can.
    Senator Lugar. But in terms of emergencies----
    Ambassador Harty. Oh, expedite passports----
    Senator Lugar [continuing]. People with weddings and what 
have you, are they getting what they need----
    Ambassador Harty. Yes, sir.
    Senator Bill Nelson [continuing]. Rapidly enough to get to 
the wedding?
    Ambassador Harty. Yes, sir. I think we have noticed an 
extraordinary dropoff in the number of calls to our call 
center, almost no e-mails on the congressional front at all to 
our call center. Our office here on the Hill reports to me 
today it was just a sort of a normal day, as if WHTI were not 
the subject of conversation every day. We feel very confident 
that, with the addition of all of the new lines at the National 
Passport Information Center, that people are getting through. I 
call it, myself, every day. I don't have a special number, 
myself. I need to make sure it's working. It was never our 
intention to make any of your staffs part of this process. But 
every time that you, in fact, send us one, we work very, very 
hard to make sure that happens. So, I'd certainly welcome those 
continued cases of concern that you have so we can reach into 
those cases and get them done as----
    Senator Lugar. So, essentially, that's likely to be the 
case until September or so? And now, what happens in September? 
What happens then?
    Ambassador Harty. With what I just described, sir, I think 
that we will see us, by the end of September, get back to 
approximately an 8-week turnaround--2 to 3 weeks for expedite 
cases, 8 weeks for regular cases--and we will continue hiring, 
training, bringing people onboard into the system, so that we 
hope to get back to 6 weeks by year's end.
    Senator Lugar. Now, there was some criticism the other day 
from somebody in the Department of Homeland Security that said 
what you're doing is a bad idea, that American security is 
jeopardized by all of this. Many of us in Congress are saying, 
``Now, hang on here, here, this is all one government, the 
United States Government.'' My own impatience with that 
particular person is profound, but let me just ask the 
situation this way. Was it a good idea for the Congress to pass 
such a law, to begin with, requiring all of these passports, 
visas, and so forth? What is your judgment, as somebody dealing 
with national security for many, many years----
    Ambassador Harty. Yes.
    Senator Lugar [continuing]. Through this, what--was this 
necessary?
    Ambassador Harty. I think it's absolutely a good idea, sir. 
I don't want to refer to the comments of a colleague from DHS, 
but what I would like to say is that you all looked, and you 
realized that it is an untenable situation when an inspector at 
a port of entry can look at as many as 8--can be required to 
look at as many as 8,000 different kinds of documents to judge 
whether or not somebody is, in fact, a U.S. citizen. I've said 
many times before that before the passage of this law, somebody 
like me could take a trip to the Caribbean, and, on the 
strength of my Staten Island accent and my Gold's Gym card, 
talk my way back into America. And you rightly realized that 
wasn't the way to do business anymore, it isn't the way to do 
business anymore, that we are in a transition period now. 
Where, before January 23 of this year, what I just described 
was the case, and is now transitioning to a time where that 
will not be the case, is, in fact, the right thing to do. I 
regret that the transition has been as rocky as it has been so 
far.
    Senator Lugar. Thank you.
    Ambassador Harty. Thank you, sir.
    Senator Bill Nelson. Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    First, I want to--with all the frustration--we've had lots 
of it, and we've had meetings. Ann Barrett runs passport 
operations. She's been out to Minnesota, and we've had 
hearings. And I think I had 1,500 cases in March of people who 
are just outraged. My colleague, Senator Klobuchar, had over 
1,000 cases. With that, I do want to compliment your staff, 
they have been very helpful. They have--we've got passports 
delivered on Saturday night and Sunday afternoon and----
    Ambassador Harty. Thank you, sir.
    Senator Coleman. So, with that, great frustration.
    But let me get to the frustration, and then look to the 
future. I'd just--one of my frustrations is--Secretary Chertoff 
came before our committee--actually, the Homeland Security 
Committee that I sit upon--in mid-February, and talked about 
the system being flawless. Now, your testimony is saying you 
noticed things in January. At least in mid-February, Homeland 
Security was telling us that the system was flawless, they--the 
bottom was falling out--just about to fall out. And I expressed 
my concern to the Secretary about that testimony, the 
perception that we were left with, which then, let me look to 
the future.
    Clearly, we understand the need for security. Passports are 
not the only way to secure--to ensure that there is security. 
Passport cards have been talked about. Secure driver's license 
is something we've talked about. In Minnesota, the--we have the 
reality--we're a border State, and we have folks that go 
fishing back and forth, and we have resorts. Our economies are 
tied together. This passport requirement was one that was going 
to have a devastating economic impact, if that was the only 
path to go.
    We have--many of us have been pushing for some alternative 
procedures. And we've also been pushing to make sure that 
whatever the procedures are, that they are--have, in fact, been 
piloted and tested----
    Ambassador Harty. Right.
    Senator Coleman [continuing]. Before they're required. And 
we--I've had legislation to that effect. And what we keep 
getting is pushback--at least from Homeland Security--is 
saying, ``We're going to move forward with the passport, we're 
going to move forward with this requirement, understanding the 
security issues and understanding there are alternative 
means.'' We now look to the future, and we have land travel, 
which has been indicated--we'll probably have twice the 
burden--at least--perhaps up to three or four times as air 
travel. This cannot be allowed to happen again.
    Can you tell me what the Department is doing, in terms of 
some alternative, secure ID systems that, in fact, are 
affordable, that, in fact, we know will work, that will ensure 
that we don't have this disaster as we move perilously close to 
the next phase of this--without a lot of confidence among this 
body, among my members, that the system is one that could 
handle the increased volume that will occur with the land 
travel?
    Ambassador Harty. Thank you, sir. A couple of quick things.
    We are ramping up to look at, from our production purposes, 
23 million adjudications in the year ahead, as I detailed 
earlier. That will very likely, at some point later in the 
year, include a passport card. We are, in fact, in the 
procurement process for a passport card right now. That card 
will be wallet-sized, about half price--half the price of a 
U.S. passport. And that gets to just exactly the people you 
described, the family who goes to grocery shop in one country 
and watch their son play soccer or their daughter play baseball 
in another country. They don't really think about the border 
the same way. The card in their pocket or their wallet will 
help them do that.
    Senator Coleman. It's hockey, in Minnesota. We----
    Ambassador Harty. Hockey, in Minnesota, OK. [Laughter.]
    There are other alternatives that exist right now that 
perhaps haven't received the play they should--they are not my 
documents, but DHS's--the NEXUS card, the SENTRI card, the FAST 
card, all available now. People who use military IDs, merchant 
marine cards, there are other----
    Senator Coleman. But NEXUS----
    Ambassador Harty [continuing]. Options available.
    Senator Coleman. If I may--NEXUS and FAST, you have to have 
systems in place to read those. We don't have those on the 
northern border, International Falls, to do that. And 
commercial travelers use that, but we've got families we're 
talking about here.
    Ambassador Harty. Yes. I'm just trying to put out some 
other alternatives for some people, frankly, who might think 
they need a passport and can do something else, if they want to 
do that.
    You mentioned other alternatives, and I know that it is in 
the bailiwick of my colleagues at the Department of Homeland 
Security, but certainly several States are looking at 
alternatives,
a--what I have heard Secretary Chertoff describe as a WHTI-
compliant driver's license. I'm not prepared to speak about 
those parameters, since that really is between Homeland 
Security and the various States engaged in that process, but I 
know that is an ongoing conversation that they are having.
    Senator Coleman. Just one other final comment, in the last 
30 seconds I have. I appreciate the expansion of your 
operations, the opening of the Colorado office in 2005. We're--
in Minnesota, we've got Northwest Airlines. It's the hub 
center, and their folks have to go to Chicago. I would think a 
number of my colleagues would look at expanding operations in--
you know, there is something between even Chicago and Colorado, 
and if we could look at that, where you have the hub centers, 
it would make it a lot easier, when we have these crises, to be 
able to respond more quickly.
    Ambassador Harty. Certainly, we're looking at expanding, 
sir, and we'll keep you well briefed on where we go, and why 
that is.
    Senator Coleman. Appreciate that.
    Ambassador Harty. Thank you very much.
    Senator Coleman. Thank you, Madam Secretary.
    Ambassador Harty. Thank you.
    Senator Coleman. Thank you, Mr. Chairman.
    Senator Bill Nelson. Senator Webb.
    And at the end of your questions, we will recess. There are 
two votes in progress, and we should have about 11 minutes 
left, right now.
    Senator Webb. Thank you, Mr. Chairman.
    And, Madam Secretary, welcome.
    Ambassador Harty. Thank you.
    Senator Webb. You know, the three least welcome phrases in 
Washington are ``I saw that article about you on Drudge''----
    [Laughter.]
    Ambassador Harty. I missed that one.
    Senator Webb [continuing]. ``I saw that picture on 
YouTube''----
    Ambassador Harty. Yeah.
    Senator Webb [continuing]. And, ``Good afternoon, Mr. 
Chairman.'' [Laughter.]
    But this is really a serious problem----
    Ambassador Harty. Yes.
    Senator Webb [continuing]. And, you know, I compliment the 
chairman on holding this hearing. We're getting hundreds of 
calls in my different offices every week on this. You know the 
horror stories. And, also, as you might imagine, your backlog 
is feeding our backlog----
    Ambassador Harty. Yes.
    Senator Webb [continuing]. In different sorts of ways. I 
have a memo that was sent to me from one my offices this 
morning with some comments on it, and I'd like to get your 
reaction. I'm not going to read the whole memo, but a couple of 
things here.
    One is, my assistant says, ``We're happy to assist people 
with their travel plans, but we're mindful that this work is 
taking precious time from folks who need help with very serious 
and essential needs, such as food, veterans benefits, housing, 
medical care, medications. While the hotline used by our 
offices for tracking the progress of a passport is better 
staffed and answered, we are increasingly receiving, as well, I 
can see it's been completed, but I can't tell if it was mailed 
out or sent by FedEx or waiting for a pickup. There's no 
tracking number on it.'' It's a recommendation, an interesting 
suggestion, from one of our staff members that, ``It's costing 
untold amounts of money to send passports out at the last 
minute by FedEx. Wouldn't it be wiser either to move staffing 
resources to the fire or hire additional staff?''--which I 
understand you are hiring additional staff.
    And, finally, that--``And this is our great concern as we 
look toward the--two more critical deadlines, September and 
January. Do we have a plan in place to effectively manage the 
volume of passport applications that we will be facing?''
    And--appreciate your comments on that.
    Ambassador Harty. Absolutely, sir, thank you. I couldn't 
agree with you more that we would really rather have your staff 
not having to deal with someone's travel plans so they could 
get to a veteran or a mother or somebody who has a particular 
issue, and maybe even a life-and-death circumstance. That is, 
in fact, why the first call lines that were installed--the 
additional call lines--were dedicated, 46 of them, to the 
congressional staffers.
    As the call center has increased, dramatically, the number 
of people who work there--200 to 500, and on its way to 800--we 
made probably--in an abundance of haste to get people on the 
line, we probably didn't make sure that everybody was as 
thoroughly trained as they should be. So, I've sent more people 
up there, and I hired back a retired fellow who actually ran 
the center, famously, not too very long ago. And so, I hope--
I'm getting some anecdotal feedback that we're actually doing a 
better job on the quality of the conversations. And if we're 
not, please call me, because we are--it's an indicator, it's 
not a complaint; and if the indicator is I need to get 
something better done, I want to get it done.
    Senator Webb. What is your goal? Is it 6 weeks?
    Ambassador Harty. Yes.
    Senator Webb. Is that your ultimate goal?
    Ambassador Harty. Yes.
    Senator Webb. Even with the two additional ramp-ups?
    Ambassador Harty. I'm going to get there next, sir.
    Senator Webb. OK.
    Ambassador Harty. You asked something about express mail 
services----
    Senator Webb. Yes.
    Ambassador Harty [continuing]. Of various kinds. I would 
love to get to a point where I don't have to do express mail 
because we're back to 6 weeks, or--we are at 2 to 3 week for 
expedites right now. But, right now, I don't want somebody 
missing a trip because the passport comes the day after the 
flight. So, that's why we're using a lot of express mail 
services, at this point. We'd like to get that gone, as well.
    And, finally, do we have a plan? We are ramping up 
dramatically through the end of this fiscal year, FY07. We're 
also looking at hiring a considerable number of people in FY08. 
I'm still working that a little bit within the State Department 
itself. I don't expect any issue there. I just don't have so 
many details for you right now on the budget side of it.
    You mentioned January, sir. Over the next several days, 
State and DHS will be announcing the proposed land border rule, 
which will demonstrate that we have heard you and have heard 
your constituents. As a result, that rule, as introduced, will 
be very flexible. What I'd like to say about that here now is, 
it's a draft rule, and we welcome your comments, and we welcome 
the comments of your constituents, and we want to make the best 
product that we can make.
    Senator Webb. Good. Thank you.
    Thank you, Mr. Chairman.
    Senator Bill Nelson. We will stand in recess. There are two 
votes. There should be about 5 or 6 minutes remaining on the 
first vote. I will come back right after the second vote 
commences, and we will pick up with Vitter, Feingold, 
Voinovich, Isakson, Murkowski, and Menendez.
    Thank you.
    [Recess.]
    Senator Bill Nelson. Good afternoon. The committee will 
resume its deliberations. And, while we are waiting for the 
remaining members to come and ask their questions, why don't 
you share, for the record, the transfer of the responsibilities 
from Mellon to Citigroup. And why wasn't Citigroup prepared? 
And then, you've mentioned this other one, BearingPoint, did a 
survey for you, and they missed the mark on the survey, 
apparently by a huge amount. Why don't you talk, for the 
record, so that we can understand where the foulups occurred 
there.
    Ambassador Harty. Thank you, sir. With your permission, 
I'll start with BearingPoint.
    We, together, came up with a figure of approximately 16.2 
million. BearingPoint contributed to that. BearingPoint did a 
survey for us, discussing, with all of the stakeholders that 
you might imagine, surveys of travelers--two separate surveys 
of travelers, Commerce Department data, DHS, the travel and 
tourism industry. Their survey, plus our historic experiences, 
together, led us to 16.2. So, while we now believe it will be 
closer to 17\1/2\, I think that we also need to share 
culpability in coming up with that number. I don't want to put 
that just on BearingPoint.
    With respect to Citi and Mellon, you are absolutely right, 
Mellon had had the contract for a number of years. Contracts 
routinely have to be recompeted. It is a contract that is not 
held by the Department of State, or administered by the 
Department of State, although, naturally, we have an incredibly 
avid interest in how that contract works. So, those two banks--
those two entities competed, and Citibank came in with a more 
modern way of doing business and won that contract; again, 
Treasury Department administered.
    We had a transition period from Mellon to Citi, and then 
Citi took off on its own, in--I believe it was October 2006. 
So, the--relative newcomers to this game--and we all learned 
some things out of the last several months. And we will all 
continue to work together to do better at what we do. That's 
our obligation and our duty.
    Senator Bill Nelson. So, the Treasury Department is the 
decider on who is awarded that contract?
    Ambassador Harty. Treasury administers that, yes, I guess 
they would be the decider. But we're sure right in there. I 
mean, we obviously are the ones who know what kind of service 
we needed.
    Senator Bill Nelson. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. And thank you 
for calling this hearing.
    Madam Secretary, I----
    Ambassador Harty. Yes, sir.
    Senator Menendez [continuing]. Appreciate your 
straightforward answers.
    Let me just say, as we talk about passports today, I think 
it's been mentioned by other colleagues that we have to 
remember this is not about a document or a piece of paper, it 
is about the lives of people, and Americans. My staff, as well 
as everybody else's, has been overwhelmed, in New Jersey, by 
the number of requests that we've had to deal with. And, of 
course, what that means is that time is taken away from other 
very critical issues that they face. And because of the nature 
of the timeliness of the concern, it gets shifted, and that 
means that other people get put at the end of the line.
    And the stories that I've heard from New Jersey include a 
recent case where newlyweds had to postpone their honeymoon 
because they had not received their passports. Another New 
Jersey woman who just about missed her wedding because her 
passport did not arrive until the day before the ceremony. And 
still another one of my constituents had to drive 96 miles and 
wait in line for hours in order to pick up her passport the day 
before she was set to travel.
    So, you know, this has massively caused an enormous 
consequence to a lot of people in the disruption of their 
lives; people who follow the rules, pay their hard-earned money 
to receive a U.S. passport. And, while I appreciate hearing 
your testimony about the statistics and how, in the first 7 
months of fiscal year 2007, the State Department issued 33 
percent more passports than in the previous year, the fact of 
the matter is that the State Department knew--knew--that the 
demand for U.S. passports would be exponentially higher than in 
previous years, and they had ample time to prepare for the 
work-log that would be caused by the new regulations under the 
Western Hemisphere Travel Initiative.
    So, at this point, in my mind, the number of passports the 
State Department has issued is not as relevant as the number of 
passports they have not issued, as well as the chaos caused by 
this bureaucratic mess.
    And that, in the midst of the debate we are having on 
immigration, where, in fact, if the underlying proposal were to 
become law, we would be in the midst of having the U.S. 
Citizenship and Immigration Services clear an estimated 4\1/2\ 
million immigrant applications from its current backlog, and an 
employer verification system that would use a passport as one 
of the key documents for employment verification. And that 
means every American in the country going through such a 
system.
    So, I look at all of that, and I am dramatically concerned 
as to where we're headed, beyond what's happened. I do want to 
say--I do want to say that I want to commend the employees at 
the passport agencies who have worked overtime and under very 
stressful circumstances to help reduce the backlog. And I think 
everyone would agree that they have been resilient and it's not 
their fault. So, I want to start there.
    But in view of what's already happened, you know, do you 
really believe that when September rolls along--of 2007--if 
you're still facing a significant backlog, what will be your 
response? And when do you expect to return to what is normal, 
which is processing times for passports, 4 to 6 weeks, versus 
the current 10 to 12 weeks? And if you're going to tell me that 
you're going to meet that target in a relatively short order, 
why are you confident that you will be able to do so?
    Ambassador Harty. Thank you, sir.
    First, I'd like to associate myself with your comments 
about people's lives and how important it is that we get this 
done. And I, as I think I mentioned earlier, feel very sincere 
when I say that even though we have gotten so very many people 
their passports, that's not good enough; we have to do them 
all, and we need to do them in a timely fashion to allow people 
to take the trips that they intend on taking.
    With respect to the question that you just asked, I'm 
watching this every day. I believe that we will get to 8 weeks 
by the end of September, with expedites in 2 to 3 weeks, and 
down to 6 weeks by the end of the year. We're going to keep 
hiring people, we're going to keep training people. We will 
identify any bump in the road, or impediment, that prevents us 
from doing what I've just said. And we will continue to brief 
on the Hill as often as----
    Senator Menendez. In September, you believe that the 
postponement to September is more than enough time to meet the 
challenges that you presently have?
    Ambassador Harty. I believe that by the end of September, 
if we are able to hire the extra 400 that we've talked about in 
the CN that's active right now, that we will have the people 
onboard to be able to get the wait time down to 8 weeks----
    Senator Menendez. But if----
    Ambassador Harty [continuing]. On an average.
    Senator Menendez. But if that ''if`` doesn't become a 
reality, then you'll slip. If the ``if'' of hiring the people 
that you suggest.
    Ambassador Harty. That may be the case, sir, but I'm going 
to spend all of the time that I have between now and then 
making sure we do exactly the opposite, that we hire the 
people, that we get the work out the door.
    Senator Menendez. Mr. Chairman, my time has expired.
    Ambassador Harty. Thank you, sir.
    Senator Bill Nelson. Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    First of all, I would like to say that my constituent 
office has had probably the best relationship with the 
Department of State that we could possibly have with any 
Federal agency over----
    Ambassador Harty. Thanks.
    Senator Voinovich [continuing]. Over the years. So I would 
not like them to feel that we are beating up on them or unhappy 
with the service that they have given. The problem, as I see it 
is with management, my key interest. In fact, one of the 
reasons I had problems with former Ambassador Bolton during his 
nomination was his management. I think that Colin Powell and 
Dick Armitage did a good job paying attention to management, 
making it a top priority, and improving the esprit de corps in 
the State Department. I was concerned when Bob Zoellick got the 
deputy job, because I felt he was not enough interested in 
management. He left there, as I expected he would. I have also 
talked with both John Negroponte and Condoleezza Rice about 
management in the past.
    So, concerning the big picture, for those people here 
representing the State Department, I think somebody better 
start paying attention to management, because the esprit de 
corps in the State Department is very low. Many people are 
retiring that probably would stick around, but they are just 
throwing up their hands and leaving the place.
    That being said, the question I have is--and I have heard 
some of what you said--I would like to see your strategic plan 
and your critical path outlining how you intend to resolve this 
major passport backlog and facilitate the Western Hemisphere 
Travel Initiative. I'd like to have a written copy of it. You 
talked about giving citizens flexibility and allowing them to 
show proof that they had made an application and given their 
photograph. But a number of Ohioans who have proof of payment 
for passport applications as far back as March have been 
inadvertently left out of the database used for passport 
processing, and thus are unable to obtain the official proof of 
passport application necessary to comply with revised 
guidelines.
    So, I would like somebody to look into why these applicants 
are no longer in the database, and get them in the database so 
that they are taken care of.
    But there's a bigger question. You are talking about the 
people that are going to get passports right now for flying 
back and forth. I am very active in the United States/Canadian 
Inter-Parliamentary Group and I have to tell you that they are 
up in arms about the requirements for traveling back and forth 
across the border. Word is getting out all over the place that 
one needs a passport. So, in addition to the ones that 
traditionally need a passport to fly, there will be an 
avalanche of people who want these passports by January 1 of 
next year, because they have been told they must have it to 
cross the border at all.
    Now, we have passed legislation that is going to delay 
Western Hemisphere Travel Initiative to June 2009. But out on 
the street, people hear they will need a passport by January 
2008, and I would like to find out whether you are anticipating 
these additional people who think they will need it to get back 
and forth on land, between the United States and Canada, 
particularly.
    Ambassador Harty. Thank you, sir, for your question.
    With respect to the people who are seeking passports to 
cross the land border now, I think that we've already seen a 
considerable amount of that. I think that is, in part, what 
we--what part of the original bump-up has been, that people 
simply, out of an abundance of caution, want to do exactly 
that. And we certainly have also heard from our Canadian 
counterparts the same consternation that Canadians feel that 
they need to get passports for the land border right now.
    We will, as I mentioned previously, over the next several 
days--actually, I think maybe even tomorrow--announce the land 
border rule, and that will demonstrate that we have heard the 
kinds of concerns you've articulated here, and the kinds of 
concerns that your constituents have mentioned to us so 
vigorously, and rightly so.
    As a result of hearing those concerns, that announcement 
will include a flexible approach, and I would just like to 
underscore, again, how sincere I am when I say that that--
that's a notice of a proposed rule that we're very interested 
in comment and concern in how we can address that and how we 
can make it better and how we can do this job as best----
    Senator Voinovich. Let me interrupt you and say that it 
would be nice, following up on the chairman's comments, if 
someone would tip off Secretary Chertoff at Homeland Security, 
who keeps saying the date for passport requirement must be 
January 1, 2008, because that confuses people. Let us make the 
message clear that the date will now be June 2009, and we are 
going to get this legislation passed.
    Somebody also ought to check whether the June 2009 deadline 
is going to be adequate, because DHS still has to develop the 
technology for REAL ID, and that is still 2 or 3 years away. 
Someone has to look at this realistically----
    Ambassador Harty. Understood.
    Senator Voinovich [continuing]. At what you will be able to 
do. And, as I have already said, I would like to have from you, 
in writing, how you will handle this. I am also going to 
request that Senator Akaka hold a hearing in the Oversight of 
Government Management, Federal Workforce Subcommittee on 
Homeland Security and what it is going to do.
    Senator Voinovich. And, Mr. Chairman, last, but not least, 
I want to submit letters for the record that I have sent to the 
Secretary of State and Mr. Chertoff. And I expect answers to 
them.
    [The above mentioned letters and a reply letter from the 
State Department follow:]

                                               U.S. Senate,
                                      Washington, DC, June 7, 2007.
Hon. Condoleezza Rice,
Secretary, U.S. Department of State,
Washington, DC.
    Dear Secretary Rice: Thank you for the Department's response to my 
letter of March 27 regarding my concerns with the implementation of the 
Western Hemisphere Travel Initiative (WHTI). I appreciate your 
continued efforts to work closely with the Department of Homeland 
Security on a plan that reflects your commitment to implement WHTI in a 
manner that facilitates travel, including the timely processing and 
issuance of passports, and takes into account the needs of border 
communities without hampering our national security interests.
    Despite your personal attention to this issue, I am of the opinion 
that the State Department has lost control of the situation. My 
constituents continue to face long processing delays and are 
increasingly unable to keep their original travel plans. As a result, 
the daily call volume of Ohioans seeking passport assistance from my 
office has increased from 76 calls in all of 2006 to nearly 1,000 to 
date. These statistics are not unique to my office, and will likely 
continue as frustration builds and more and more travelers, who have 
dutifully followed State Department guidelines and paid the requisite 
fees, are prohibited from travel. I offer an example to help illustrate 
the situation: Last Thursday, my office was informed that passports for 
a couple were being sent express mail. Only one passport arrived in 
time for their scheduled departure. In a followup call, my office was 
informed that the second passport was never sent.
    I do not believe the current implementation plan is realistic and 
have serious concerns regarding how the Department failed to anticipate 
and prepare for the increased demand. Summer travel is not a new 
phenomenon. Notwithstanding the Department's use of mandatory overtime 
and the hiring of additional personnel, it is clear that the existing 
planning and resources are woefully inadequate.
    In the short term, I ask that you work with Secretary Chertoff to 
adjust your mutual policies to allow acceptance of alternate 
identification documents until the larger problem can be addressed. 
Given the sheer volume of American citizens who now or will shortly 
require either a passport or a passport card, I further recommend that 
you take a fresh look at the forthcoming regulations and land border 
implementation plan being developed by the Department of Homeland 
Security to ensure they represent a feasible approach.
    I remain hopeful that we can develop a reasonable solution that 
allows us to safeguard our borders without negatively impacting 
legitimate commerce and travel.
            Sincerely,
                                       George V. Voinovich,
                                                      U.S. Senator.
                                 ______
                                 
                                               U.S. Senate,
                                     Washington, DC, June 13, 2007.
Hon. Condoleezza Rice,
Secretary, U.S. Department of State,
Washington, DC.
Hon. Michael Chertoff,
Secretary, U.S. Department of Homeland Security,
Washington, DC.
    Dear Secretaries Rice and Chertoff: After numerous American 
travelers missed their departure dates, through no fault of their own, 
I was pleased that the administration made the right decision to make 
an accommodation to the Western Hemisphere Travel Initiative for air 
travel. Under the new guidance, it was stated that U.S. citizens 
traveling to Canada, Mexico, the Caribbean and Bermuda (who have 
applied for but not yet received passports) can temporarily enter and 
depart from the United States by air with a government issued-photo 
identification and official proof of their passport application. 
Unfortunately, there continue to be a number of challenges and failures 
in communication that prevent well-intentioned American citizens from 
embarking on their planned trips. In some cases, it has caused families 
to arrive at a destination, only to be turned away and sent back home. 
I am writing to request your immediate attention to making sure that 
our citizens have accurate and clear information about the new 
requirements, and that we address the overarching problem as quickly as 
we can.
    I would like to share an example of the confusion that resulted in 
wasted time and money for an Ohio family. On Saturday, the family of 
five left the United States via air for the Turks and Caicos. The three 
children had their passports in hand, and the parents, who were still 
waiting after 12 weeks, had proper identification and proof of passport 
application consistent with the recently released guidelines which 
specifically referenced the Caribbean. Unfortunately, upon arrival in 
the Turks and Caicos, the family was denied entry, and boarded a return 
flight to Philadelphia, Pennsylvania. The family mistakenly believed 
that the revised WHTI guidance superseded any foreign country 
requirements for entry. Once in Philadelphia, an airline representative 
escorted the family to Customs and Border Patrol, where agents 
indicated they were not aware of the new guidance. It is apparent that 
our own citizens are still unaware that some countries will refuse 
entry without proper documentation regardless of the most recent 
accommodations made by the administration. It is imperative that a 
clear message is sent to the public regarding what this accommodation 
does and does not mean.
    While the issuance of guidance provided relief to thousands of 
American citizens with impending air departures, new confusion has 
resulted from poor implementation of this flexibility and the 
underlying challenge has not been resolved. On a related matter, it 
appears that a number of Ohioans who have proof of payment for passport 
application as far back as March have been inadvertently left out of 
the database used for passport processing, and thus are unable to 
obtain the official proof of passport application necessary to comply 
with the revised guidelines. It is unacceptable to me that American 
citizens who are following guidance continue to be denied entry to 
countries within the Western Hemisphere.
    Moreover, the massive backlog of passport applications has resulted 
in unacceptable delays, costs, and cancellations extending well beyond 
Western Hemisphere travel. In one case, a Cleveland-area law 
enforcement official was invited by the Turkish National Police to 
serve as an American Ambassador at the Istanbul Conference on Democracy 
and Global Security. The individual was honored to be invited and have 
the opportunity to represent our country at the international 
conference. In fact, our government reached out to him to request that 
he debrief them after he attended the conference. He and his wife 
applied for passports in early March and were advised that they would 
have their passports in plenty of time to attend the June conference. 
Three weeks ago, the couple still had not received their passports.
    Despite numerous attempts to contact the Passport Agency, they 
received no reply to their status inquiries or expedited processing 
requests. When my office was contacted about the situation on June 8, 
we intervened and learned that while his passport was in process, the 
Passport Agency had not even begun to process his wife's application 
after 13 weeks. the only resolution to the situation would have 
required 450 miles of travel from Cleveland to Chicago, at great 
expense to the couple, to appear in person at the Chicago Passport 
Agency. Due to this regrettable fiasco, the law enforcement official 
was forced to cancel his attendance at the Istanbul Conference. In an 
ironic twist, his passport arrived by FedEx yesterday morning, just 
after the couple's flight had been scheduled to depart.
    Consistent with my letter of June 7, I would like to know what 
steps you are taking to ensure that our citizens understand the 
recently released operational guidance for air travel within the 
Western Hemisphere. I also look forward to additional information on 
how you intend to address the need for efficient passport issuance 
processes and clarification of guidelines that will need to be resolved 
well in advance of the land border implementation of WHTI. Lastly, I 
would like to know who is responsible for managing this situation at 
your respective agencies, particularly given that the position of Under 
Secretary of State for Management is vacant.
            Sincerely,
                                       George V. Voinovich,
                                                      U.S. Senator.
                                 ______
                                 
                                  U.S. Department of State,
                                     Washington, DC, July 24, 2007.
Hon. George V. Voinovich,
U.S. Senate,
Washington, DC.
    Dear Senator Voinovich: Thank you for your letters of June 7 and 13 
regarding the delays in processing passport applications and the 
implementation of the temporary measure of June 8, 2007. Please be 
assured that we are working diligently to resolve the problems 
associated with the unprecedented demand for passports.
    As you know, all U.S. citizens arriving by air since January 23, 
2007, have been required to present a valid passport when entering the 
United States. The Department ramped up capacity--personnel and 
physical facilities--to meet anticipated increase in demand. We are 
enclosing a document summarizing the many actions we have taken to date 
to meet the growth in passport demand. Nevertheless, we are aware that 
some travelers have not been able to obtain passports before their 
planned travel because of longer processing times cause by record-
setting demand. We are working with our partners at other agencies, 
congressional offices, and the travel industry to assist travelers who 
have applied for passports in a timely manner, while still being 
mindful of our Nation's border security goals.
    On June 8, we announced, together with the Department of Homeland 
Security, that U.S. citizens traveling to Canada, Mexico, the Caribbean 
and Bermuda who have applied for but not yet received passports can 
temporarily enter and depart the United States by air with a 
government-issued photo identification and an official proof of 
application from the U.S. Department of State through September 30, 
2007. Children under the age of 16 traveling with their parents or 
legal guardian will be permitted to travel with the child's proof of 
application. Children 16 and under traveling alone should carry a copy 
of their birth certificate, baptismal record, or a hospital record of 
birth in the United States as well as the proof of passport application 
status. Travelers who have not applied for a passport should not expect 
to be accommodated. U.S. citizens with pending passport applications 
can obtain proof of application at: http://travel.state.gov.
    This accommodation does not affect entry requirements to other 
countries. Americans traveling to a country that requires passports 
must still present those documents. Travelers should contact the 
embassy of the country they are visiting. Contact information is 
available on the Consular Bureau's Web site, http://travel.state.gov. 
Travelers may also contact their airline to verify the documents 
passengers need to board a flight to the country they are visiting.
    The joint State-DHS announcement has had a significant impact. 
Since June 8, hundreds of thousands of users have accessed the Internet 
site from which proof of a pending passport application can be 
obtained. We will, of course, process to completion all applications on 
hand; but the flexible transition period will allow us to get first to 
many of those applications where people actually need passports in 
order to travel. We will continue to work hard to meet the tremendous 
challenges of this unprecedented passport demand--our goal is to ensure 
that American citizens have the documents they need for their travel 
abroad.
    We recognize that when we implemented this temporary measure to 
accommodate the traveling public, we still needed to consult with air 
carriers and destination countries within the Western Hemisphere. 
Working diligently with host governments in the Caribbean, Mexico, and 
Canada, and with the Air Transport Association (ATA) and the 
International Air Transport Association, we were able to update the 
foreign entry requirements in their database systems. We took this 
unusual step in order to provide relief as soon as possible to the 
traveling public, and we regret that there was some initial confusion 
and that some travelers were returned to the U.S.
    We hope this information is helpful in addressing your concerns. 
Please feel free to contact us further on this or any matter of concern 
to you.
            Sincerely,
                                Jeffrey T. Bergner,
                                       Assistant Secretary,
                                               Legislative Affairs.
                                 ______
                                 
                                               U.S. Senate,
                                     Washington, DC, June 13, 2007.
Hon. Daniel K. Akaka,
Chairman, Subcommittee on Oversight of Government Management, Committee 
        on Homeland Security and Governmental Affairs, Hart Senate 
        Office Building, Washington, DC.
    Dear Chairman Akaka: I am writing to express my interest in holding 
a subcommittee hearing to examine the capacity of federal agencies to 
meet the demand of American citizens needing identification documents 
in order to comply with recently enacted laws such as the Western 
Hemisphere Travel Initiative (WHTI) and the REAL ID Act of 2005. 
Although these laws represent critical elements of our comprehensive 
efforts to improve homeland security, they place a heavy demand on 
agencies to develop the infrastructure and human capital necessary to 
meet the various deadlines for compliance. Based on recent events, 
question whether agencies are equipped to meet this burden.
    Last Thursday, the Departments of Homeland Security and State made 
the right decision to temporarily suspend the passport requirements for 
air travel by American citizens under the Western Hemisphere Travel 
Initiative until September 30, because the State Department was unable 
to meet the spiraling demand for passports. I remain disturbed that the 
Department of State failed to anticipate and plan for the demand, 
despite enactment of the requirement for a more secure Western 
Hemisphere in 2004. Thousands of American families were forced to 
cancel their long-anticipated trips before the change in policy was 
announced, despite having dutifully followed State Department 
guidelines and paid the requisite fees to obtain passports. The 
Department of Homeland Security expected to release its regulations for 
WHTI land border implementation within 2 weeks. With the anticipated 
deadline for land and sea border compliance approximately 6 months from 
now, I believe the State Department will find itself in a similar 
situation unless significant management improvements are made.
    During our March 26 hearing to examine the implementation of the 
REAL ID Act of 2005, I suggested that we invite some of our witnesses, 
including the Department of Homeland Security, to report to the 
subcommittee on their progress in developing the requirements and 
infrastructure necessary for States to issue secure drivers' licenses 
in less than 11 months. Our government's failure of last week, current 
preparations for REAL ID, and the looming deadline for WHTI land border 
compliance raise new questions in my mind about whether or not our 
agencies have completed the planning necessary to meet the demand for 
the efficient processing of secure identification documents required by 
our homeland security laws.
    You and I understand the link between good management and 
operational success. Agencies' ability to meet the current and future 
challenge of providing well-meaning American citizens with the 
identification documents necessary to move freely within and across our 
borders requires greater management focus in the near term. 
Accordingly, I encourage you to hold a hearing to help ensure our 
agencies are instituting the policies necessary to meet the 
unprecedented demand for government-issued identification documents 
between now and 2013. As ranking member, I believe it is our 
responsibility to help ensure agencies develop plans that help 
facilitate legitimate commerce and travel, including the timely 
processing and issuance of passports and inquiries for secure drivers' 
licenses, without hampering our national security interests.
    I look forward to your response.
            Sincerely,
                               George V. Voinovich,
                            Ranking Member, Subcommittee On
                                Oversight of Government Management.

    Senator Voinovich. Thank you very much.
    Ambassador Harty. Thank you, sir.
    Mr. Chairman, may I just answer the Senator's other 
question about the Ohioans that are not in the database?
    When we first did this, we found that there were several 
cases like that. Not a lot. And I'm sorry if they were your 
constituents. I'm sorry it happened to anyone. But we did make 
some fixes very quickly. With your permission, we'll call your 
office and find out who those people are, so we can make sure 
we serve them.
    Senator Voinovich. I'd appreciate that.
    Ambassador Harty. OK.
    Senator Voinovich. Thank you.
    Ambassador Harty. Thank you.
    Senator Bill Nelson. Senator Feingold.
    Senator Feingold. Mr. Chairman, first of all, let me thank 
you for your great leadership on this. This is a very important 
issue.
    And, Assistant Secretary Harty, thank you for appearing 
before the committee today. This backlog, as I'm sure you've 
heard from everybody, has affected many of my constituents in 
Wisconsin, and my staff has worked incredibly long hours 
without complaint to try to deal with it, and they have tried 
to make it clear to me just how significant the problem is.
    I want to extend my thanks, also----
    Ambassador Harty. Thank you.
    Senator Feingold [continuing]. In addition to you, to the 
employees of your agency who have been working very long hours 
as a result of the passport backlog. I appreciate their efforts 
as well.
    Now, under these temporary regulations, Americans must 
produce proof of a pending passport application to travel by 
air to and from Canada, Mexico, the Caribbean, and Bermuda. 
According to caseworkers in my State offices, individuals must 
have their passport application locator number as proof of a 
pending passport application. I understand from my State 
offices that many Wisconsinites have become frustrated that no 
locator number is assigned to applications in the initial phase 
of processing at the lockbox facility. As a result, when a 
passport application is delayed in this initial phase of 
processing, it is, I'm told, virtually impossible for an 
individual to present the required proof of a pending passport 
application. This is a problem that is affecting many people in 
my State. Is this specific to Wisconsin, or is it a national 
problem? And what steps are being taken to address it?
    Ambassador Harty. I very much appreciate that question, 
sir, because it gives me a chance to explain again what we try 
to say so many times. When we introduced this on June 8, we did 
several things at once. One of them was, we started sending 
folks a postcard, so somebody who applies for a passport now 
gets a postcard, and it says, ``Thank you for applying for a 
passport. We received your application. It's being processed. 
If you are traveling to Canada, Mexico, the Caribbean, and 
Bermuda, and need verifiable evidence that you've applied for a 
passport, here's how you do it. You go to our Web site.'' So, 
this passport is going to John Q. Citizen now as they apply 
for--this postcard is going--now as they apply. I wish I had 
thought of it sooner.
    When you go to travel.state.gov, this is the home page. 
This is the very first page you see. And in the upper right-
hand corner there are four, sort of, little icons you can 
click. The second one of those says, ``Click here for proof of 
passport application.'' So, you do that. We ask you to put in 
your name, your date and place of birth, and your Social 
Security number. And this page pops up, the U.S. Passport 
Application Status page. That's what you need. That's the page 
you print. And that proves that you've got what you need.
    So, we were concerned--travel.state.gov is a great Web 
site. Lots of people use it. It got 219 million page views last 
year. But nobody was born knowing that that Web site exists. 
That's why we invented the postcard option, to make sure that 
we're reaching out to everybody who has said to us--``You've 
got an application, we want to help you get there.'' And, while 
not everybody's as computer savvy as they might be, with this 
postcard in hand everybody's got a nephew or a niece who can do 
it for them, if they can't.
    Senator Feingold. Another concern I've heard from people in 
Wisconsin has to do with maintaining the integrity of the 
security review and vetting process for passport applications. 
My caseworkers have experienced situations in which passports 
have been mailed to incorrect addresses in other States. In an 
effort to reduce the backlog as quickly as possible, what is 
the State Department doing to ensure that all applications are 
fully and appropriately vetted?
    And are you concerned about an increase in passport fraud 
as a result of this backlog?
    Ambassador Harty. Every single passport, before it leaves 
our hands, goes through what we call a quality control check. 
And so, I regret that any one of them ever goes to an address 
that it should not go to. It doesn't even make me comfortable 
to say that when you do 1.5 million anything's--you might make 
a mistake from time to time, because I wouldn't want to be the 
one who had the mistake made about them. So, we work very hard 
to make sure that it doesn't happen, sir, and work very hard to 
make sure that we ameliorate that situation just as quickly as 
we can if it does.
    With respect to your other question, about a half percent 
of applications are regularly referred from our adjudicators, 
from our passport specialists, to fraud prevention managers who 
look at them and drill down further into those applications. 
Those that are then found to be suspicious or not what they 
appear to be are referred to our colleagues in the Bureau of 
Diplomatic Security for further investigation. We have not seen 
that number go up appreciatively during this time, it's just 
about the same ratio that it has always been. So, the real 
number----
    Senator Feingold. So, is there any need or plans to make 
changes to the security review or adjudication process, in 
light of the passport backlog?
    Ambassador Harty. No, sir; I don't think that we can, or 
should, cut corners on the actual adjudication. We really do 
need to make sure we know who's getting a U.S. passport.
    Senator Feingold. So, what--I was asking whether you need 
to do things to make it stronger.
    Ambassador Harty. Oh. Well, I'm hiring more people, and 
most of those people are going to be passport specialists, 
adjudicators, but a bunch of them are also going to be in our 
fraud prevention program so that we can make ourselves more 
accessible to all of the passport specialists and adjudicators, 
but, also, we're going to do a little bit more with the 
passport acceptance facilities, the over-9,000 offices across 
the country--post offices, clerks of court--who actually accept 
passport applications for us. We want to plus-up our ability to 
do more training with them, because that's a point where we 
think we could use that kind of extra attention.
    Senator Feingold. Do you have any estimates of how many 
passports have been misprinted or delivered to wrong addresses?
    Ambassador Harty. I don't, sir. I can try and get that for 
you.
    Senator Feingold. Thank you, I'd appreciate that.
    And I thank you, Mr. Chairman.
    Ambassador Harty. Thank you, sir.
    [The written information from the State Department 
follows:]

    In FY07 to date, less than 1 percent of passports issued were 
returned for error correction. Passport errors include data entry 
errors, switched photos, and passports mailed to an incorrect address.

    Senator Bill Nelson. Let's get into some specific numbers, 
for the record.
    What were the projections for passport demand following the 
enactment of the Western Hemisphere Travel Initiative?
    Ambassador Harty. Passport demand projection for FY05 was 
10,499,839.
    Senator Bill Nelson. And----
    Ambassador Harty. The actual was 10,412,146.
    Senator Bill Nelson. The question is, the Western 
Hemisphere Travel Initiative----
    Ambassador Harty. FY06, then, was--because 12 million--
well, yeah, just a little over 12 million, and the actual that 
year was 12,333,000. FY07----
    Senator Bill Nelson. That's total.
    Ambassador Harty. Yes, sir. FY0-----
    Senator Bill Nelson. That's total. What about the Western 
Hemisphere Travel----
    Ambassador Harty. Oh, I'm sorry, excuse me. I'm going to 
have to get you those numbers.
    That's total, and I don't have the specific breakdown. It's 
inexplicable to me, sir, but I don't have it with me. I 
apologize.
    Senator Bill Nelson. Does any of your staff back there have 
it?
    Ambassador Harty. I don't know. Do you have----
    Senator Bill Nelson. I mean, if that's the main reason for 
the breakdown----
    Ambassador Harty. For WHTI, yeah.
    Sir, I'm going to have to pull it for you out of the 
system.
    Senator Bill Nelson. Well, if that's the main reason for 
the breakdown, other than just people wanting a new passport--
--
    Ambassador Harty. I think, certainly a significant part of 
it is, sir, but I don't think that's all of it. I genuinely 
believe, based on what I see in passport applications, that a 
significant number of American citizens are applying for U.S. 
passports because they believe this to be a useful document to 
them, whether it's to prove that they are American citizens--
perhaps they're naturalized and just have become American 
citizens--or it is to prove that they're American citizens to 
qualify for a Federal benefit, or it is simply an easy document 
to use to board a common conveyance, mostly an airplane, even 
if they're not traveling internationally. We have created a 
large demand for the passport because of its utility in a 
number of situations. That is certainly not all of it, by a 
longshot.
    But I'll get you the numbers that you asked for, sir. I 
regret I didn't bring them with me.
    Senator Bill Nelson. But the Western Hemisphere Initiative 
was the new requirement. You knew you had to have a passport 
for somebody that didn't have it before.
    Ambassador Harty. That's right, sir.
    Senator Bill Nelson. So, I'd like to have that number.
    Ambassador Harty. I'm going to have to take that question, 
sir, and get that for you.
    Senator Bill Nelson. Well, it's hard for us to judge if we 
don't know. I mean, if it's the large part of the increase, 
that's one thing, if it's a de minimis part of the overall 
increase, that's another thing. So, how can we, at this 
hearing, make judgements without knowing that number?
    Ambassador Harty. I apologize for not having that number 
for you, sir.
    Senator Bill Nelson. Since 2005, what measures did you take 
to expand facilities and hire additional personnel to deal with 
the anticipated increase?
    Ambassador Harty. Since 2005, on personnel, sir, total 
passport employees hired in FY05 was 441; in FY06, 925; in 
FY07, 1,222. On expansion of facilities--Houston, Chicago, 
Boston, Seattle, Miami--were all increased. Miami will be 
increased in a significant way. I've already walked the space. 
And we're moving it from where it currently is to another 
building, another part of town, and it will go from 18,000 
square feet currently to 28,000 square feet. I have also--we 
have also built the Denver Passport Agency in this timeframe. 
We also built the Arkansas Passport Processing Center that we 
just opened, cut the ribbon on, last week, although it's been 
in process--it's been working for about 6 weeks, and they've 
already cranked out about 150,000 passports. We also are 
expanding the National Passport Center, and GSA is working with 
us on a fast-track approach to build--we've got a big building 
there, it's been our flagship for a long time; we are looking 
for another building, because we need about 100,000 square feet 
up there, and that's what we're looking for now.
    Senator Bill Nelson. Before I get into 2007, why don't you 
have a member of your staff step outside with their cell phone 
and see if they can get that number, from the office, that I 
asked for, which is: How much of the new passport applications 
are attributable to the requirement of the new passports in the 
Western Hemisphere Travel Initiative?
    OK. Now, on 2007, you said that you've hired about 1,000 
additional people in 2007.
    Ambassador Harty. Yes, sir.
    Senator Bill Nelson. And you also have a request to hire an 
additional 400 in 2007?
    Ambassador Harty. Yes, sir; that's the subject of the CN.
    Senator Bill Nelson. What is ``CN''?
    Ambassador Harty. Congressional notification, that we're 
going to spend about $40 million to expand Miami, to expand the 
National Passport Center, to hire 400 additional employees.
    Senator Bill Nelson. OK. And you're also anticipating to 
hire another 400 in 2008?
    Ambassador Harty. Yes, sir.
    Senator Bill Nelson. And it's only now that you've 
discovered that the volume is such that you're going to have to 
have all these additional people. That's 1,000, plus 400, plus 
another 400--that's 1,800 just since January of this year.
    Ambassador Harty. The numbers that we hire each year also 
take into account a significant amount of attrition. This is 
government employees, as well as contract employees. So, we 
give you that number to give you a sense of exactly how many 
new people we've brought onboard, but in some cases it wasn't a 
new position, it was that somebody had left the job. Matter of 
fact, on the contractor side, we have a very regular turnover 
of contractors.
    Senator Bill Nelson. Well, what is the attrition rate in 
your----
    Ambassador Harty. On the contractor side, my folks tell me 
that it is about three to one. I mean, we turn people over 
very, very quickly on the contractor side, not on the passport 
specialist side.
    Senator Bill Nelson. What does ``three to one'' mean?
    Ambassador Harty. Well, the turnover is so quick that, as 
we look at, in any given year, how many people we're going to 
hire, we see just about--you know, just about, I guess, a third 
of those turning over every year. And, in fact, in some of 
those cases, if not many of those cases, we're bringing them on 
full-time to the government side of the house. They have 
learned the business, we have openings, and they are often 
quite competitive to come on in and adjudicate and become 
passport specialists, because they have been a part of the 
nongovernmental side of the house before that. So, there is a 
constant hiring process going on, even before WHTI, sir.
    Senator Bill Nelson. So, for the contractors, you're 
saying, for every three people hired, one person leaves.
    Ambassador Harty. Yes, sir; I believe that--I believe I 
have understood that correctly from my people, and if I'm 
wrong, I'll correct it for you.
    Senator Bill Nelson. And what is the attrition with regard 
to the people who you are hiring now, and have hired in the 
last several months?
    Ambassador Harty. I'm going to have to get that for you, 
sir.
    Senator Bill Nelson. Is it less than for contractors? Is it 
more than for contractors?
    Ambassador Harty. Oh, I'm sorry, on the governmental side? 
No, I don't have a hard number for you, sir, but attrition on 
the full-time government employee side is not very high. That 
has not been of significant issue for us.
    [The written information from the State Department 
follows:]

    The attrition rate among contract employees involved in passport 
processing is about 40 percent annually. The attrition rate among full-
time government employees has averaged roughtly 7 percent for the last 
2 fiscal years (7.14 percent for FY 2007; 6.95 percent for FY 2006).

    Senator Bill Nelson. Well, in November, you knew that you 
had received 250,000 more applications than you had originally 
projected. That's in November 2006. Then, in January, the 
problem grew to another 600,000 above your estimates. So, 
knowing that, why did it take the Department so long to act?
    Ambassador Harty. In the month of January, and even 
actually in the month of December, we had begun advertising the 
fact of the Western Hemisphere Travel Initiative. And so, we 
initially, and erroneously, believed that the bump-up in 
January, in that period actually, was because we had made 
people aware of the requirement. We didn't realize right away, 
sir, that it was going to continue at those significant high 
levels. And now, as I have previously testified, it certainly 
seems clear that it is a changed world, that this is going to 
be a sustained and increasing demand for U.S. passports, for 
all of the reasons we've cited, not just Western Hemisphere 
Travel Initiative.
    Senator Bill Nelson. After January, when did you hire the 
first additional people?
    Ambassador Harty. Oh, we've been hiring people nonstop, 
sir.
    Senator Bill Nelson. When did they first start? When did 
you first start hiring new ones?
    Ambassador Harty. I think it's fair to say, sir, that every 
month we're hiring people. We are constantly in a hiring 
phase----
    Senator Bill Nelson. Yeah, but that's not the question.
    Ambassador Harty. Yeah.
    Senator Bill Nelson. The question is: When you saw that you 
had more applications than you originally projected--you first 
saw that--250,000 more in November, and then, in January, you 
saw, again, that you had more than 600,000 applications above 
your estimates, when did you start hiring additional staff?
    Ambassador Harty. Sir, I have year-by-year, I don't have 
month-by-month with me, but I can assure you we've been hiring 
people every month--2006 and into 2007.
    Senator Bill Nelson. Yeah, but that doesn't help me 
understand the situation of why you waited so long. I need to 
know, and this committee needs to know: When did you start 
responding to the fact that you had more applications than you 
had? Now, get your staff member's note, and see if that'll 
refresh your memory.
    Ambassador Harty. I actually thought I had the worst 
handwriting in the world, sir, but I need a moment. I----
    Senator Bill Nelson. OK.
    Ambassador Harty [continuing]. I don't understand this.
    Senator Bill Nelson. Take your time.
    [Pause.]
    Ambassador Harty. They're reminding me, sir, of an 
additional thing that we did, but I'm not certain of the date. 
We went to OPM because we had two issues. One was, it does take 
a little while to identify people, bring them onboard, train 
them, clear them, and all of those things. But two categories 
of people that we were very interested in, because, in many 
cases, the training issue would be much less, and also the 
security issue would very likely be much less, and those were 
WAEs, retired Foreign Service officers who had done this work 
before, and civil service. And we went to OPM--this note says, 
actually, March, but I'm not sure, and I apologize, sir, I will 
have to get back to you.
    I think it might even have been February--where we asked to 
have OPM give us, sort of, a lifting of the cap in their 
restrictions on hiring back retired passport employees, because 
what we tried to do--I want the new folks, you bet I do, but if 
I can hire back some retired passport employees who already 
know the business--there's a sort of a disincentive in the 
Government to do that for people to come back who have retired 
on the civil service side. But we got an exception. We got an 
exception for 100 or 150 people. I'm not sure, sir, when that 
is, but I will find it out and give it back to your staff.
    I apologize for not anticipating this line of questioning.
    Senator Bill Nelson. Who do you have to ask to get that 
exception so that you can hire those additional people? Who did 
you ask?
    Ambassador Harty. Under Secretary----
    Senator Bill Nelson. In March.
    Ambassador Harty. Under Secretary Fore called OPM. I don't 
know the name of the person she spoke with, but I will find it 
out for you.
    [The written information from the State Department 
follows:]

    Linda Springer, Director of OPM, approved the request to waive the 
salary offset and reemploy annuitants in a memo to Under Secretary Fore 
on March 30.

    Senator Bill Nelson. Did you bring this problem to the 
attention of the Secretary of State?
    Ambassador Harty. The Secretary was aware of the things 
that we were doing, yes.
    Senator Bill Nelson. That's not my question. Did you bring 
this to the attention of the Secretary of State?
    Ambassador Harty. Which part of the issue, sir?
    Senator Bill Nelson. The fact that you're way behind the 
eight ball on hiring people for the amount of new applications 
that you're receiving.
    Ambassador Harty. I have sent several memos to the 
Secretary, sir. I don't know if I specifically mentioned the 
hiring issue. It would be normal for me to go to the Under 
Secretary for Management.
    Senator Bill Nelson. Ok, let's assume the note that was 
just passed to you is correct, March. So, you knew, in--you 
knew, in November, there were 250,000 more applications. You 
knew, in January, that there were 600,000 more applications. 
Would it not occur to a manager that we're going to need some 
more work done, and people? So, why wait 'til March?
    Ambassador Harty. Sir, we were hiring in November, in 
December, in January. The idea about retirees, I think was a 
good idea, we just didn't think of it right away.
    Senator Bill Nelson. Didn't think of it right away. And you 
thought that this was a false--did you say, earlier, that you 
thought this was a false bump-up and that it was going to 
settle back down?
    Ambassador Harty. We thought it was a bump-up in response 
to the public outreach we and Homeland Security had done to see 
people comply with the January 23 deadline.
    Senator Bill Nelson. Well, let's talk about the vendor. 
When did State first realize there was a backlog of 
applications at the lockbox operation?
    Ambassador Harty. Mid-January, sir.
    Senator Bill Nelson. And what measures were taken by State 
and Treasury in response to that?
    Ambassador Harty. Lots of conversations, lots of people 
from passport services going up there. I, myself, went. I went 
with somebody from Treasury in very, very, very regular 
monitoring of: How are we going to get this back to the normal 
performance standard?
    Senator Bill Nelson. In your opinion, has the contractor 
performed adequately?
    Ambassador Harty. They are now, sir. I think that together 
we were impressed with the seriousness of the situation, and we 
addressed it. I would, of course, prefer that this never had 
happened this way, but they are--they really did put the pedal 
to the metal, sir, to ramp up and to address the concerns that 
they saw, and that we addressed with them.
    Senator Bill Nelson. Well, you just testified that January 
was when you found that there was a problem in the lockbox, and 
it is now 5\1/2\ months later that you're saying they're really 
trying now.
    Ambassador Harty. No, sir. They're--excuse me--but they're 
back to 24-hour turnaround.
    Senator Bill Nelson. Ok. So, your answer to the question, 
then, ``Has the contractor performed adequately?'' is ``yes'' 
or ``no'' or ``maybe''?
    Ambassador Harty. I don't mean to be difficult, sir, but 
they--when addressed--when we addressed their performance 
issues, they rectified them.
    Senator Bill Nelson. Within what period of time?
    Ambassador Harty. By mid-May they were back to 24-hour 
turnaround, sir.
    Senator Bill Nelson. Is that good enough for government 
work, since you're the accountable figure?
    Ambassador Harty. Sir, it's not a phrase I ever use. ``Good 
enough for government work,'' in my--the way I----
    Senator Bill Nelson. Is that good enough for your 
standards?
    Ambassador Harty. I would have liked it to have been 
faster, sir.
    Senator Bill Nelson. Is there a penalty, then, under the 
contract?
    Ambassador Harty. I will have to explore that with the 
Treasury Department. It's not my contract, and I apologize, but 
I don't know the answer to that question.
    Senator Bill Nelson. When do you expect to clear the 
backlog of pending applications--there are some 2 million 
applications.
    Ambassador Harty. There's actually just under 3 million 
applications in the system, sir. We expect, given the hiring 
we're going to do and the things I've described today, that, by 
the end of September, we will get to 8 weeks, and, by the end 
of the year, back to 6 weeks. We will brief you if that is not 
the case. It is certainly my intention to do everything we can 
to get there and to make sure that the Web site is as regularly 
updated as possible to make sure that Americans know what to 
expect. The service standard and transparency there is an 
important thing that we need to make sure we get it right.
    Senator Bill Nelson. OK. And ``the end of September,'' 
translate that into numbers for me.
    Ambassador Harty. I'm sorry, sir.
    Senator Bill Nelson. There's 3 million now. So, at the end 
of September, you're going to have how many millions still 
pending, that you get it down to 8 weeks, and, at the end of 
the year, you're going to get it down to 6 weeks. And so, how 
many millions are still pending at that point?
    Ambassador Harty. When we are back down to--at the end of 
September, we'll have about 2 million churning through the 
system, but it's--it's the volume, sir, it's not--you know, a--
--
    Senator Bill Nelson. Yes, I----
    Ambassador Harty [continuing]. passport comes in----
    Senator Bill Nelson [continuing]. I understand.
    Ambassador Harty [continuing]. Today and goes out tomorrow. 
You know, they're----
    Senator Bill Nelson. I understand. It's the volume. But 
it's 2 million applications that have to be handled.
    Ambassador Harty. That's right.
    Senator Bill Nelson. OK?
    Ambassador Harty. That's right, sir.
    Senator Bill Nelson. And by the end of the year, how many 
will it be?
    Ambassador Harty. It's an estimate, sir, somewhere between 
a million and a million and a half.
    Senator Bill Nelson. All right. And why are you confident 
that--in your testimony today, that you'll be able to meet that 
target?
    Ambassador Harty. We have looked at the traditional, sort 
of, seasonal flow of passport applications, and we have--
although it's all higher, if you were to chart it out on a 
graph, it is also following a historic pattern, so we are 
entering the slower season for passport applications just at 
the same time that we are ramping up, as we have described this 
afternoon. And so, that combination of those two things is 
going to allow us to begin to take a bigger chunk out of the 
work in progress that we've got now. And we are--I am 
monitoring that, sir, on a daily basis. Every morning, at 9:30, 
we do this.
    Senator Bill Nelson. OK. You have told us that you're 
trying to get the word out with regard to the new travel 
requirements up to September the 30th for the Western 
Hemisphere Initiative. What measures are you taking to 
prioritize other passport applications for citizens that are 
traveling to other countries outside of the Western Hemisphere 
Travel Initiative?
    Ambassador Harty. A couple of things, sir. First, the 
passport application has a space where you tell us when you're 
traveling and where you're going. And so, we've asked--we're 
working with Citibank to try and make sure that we can 
reprioritize it a different way so we can get the work in and 
identify that which has to get out more quickly than others.
    Also, at each of our agencies, we've got people doing that 
same thing, pulling application--it's laborious, it's not a 
situation that we want to be in, it's just a situation that 
we've got to spend the time on to make sure we reach in and 
identify as many of those applications on an agency-by-agency 
basis as possible. I've sent dozens of people to our National 
Passport Center, for instance, just, in fact, to go through 
files to find applications to move things more quickly. Of 
course, on the expedite side, although we've been through a 
little bit of that today, we are also moving expedites to the 
front of the line at every possible turn. If somebody hasn't 
identified on the envelop that it is an expedite, we're also 
asking that our Citibank colleagues, sort of, identify that and 
move that to the front of the line for us.
    We are, of course, also receiving phone calls, ourselves, 
and the National Passport Information Center is able to receive 
a lot more of those phone calls now, because they've put in all 
of those lines.
    And so, we are working with people as they call us. We're 
also pulling cases out of the system. It's not the best way to 
do business. It is the situation we are in, and it's why we 
want to get out of it as quickly as we can so that we can get 
back to a more standard approach to doing the work that we do.
    Senator Bill Nelson. And, come September 30, what is going 
to be your adjustment on the Western Hemisphere Travel 
Initiative, since you've suspended the requirement for a 
passport up through--this is for air travel only--for----
    Ambassador Harty. To countries within the affected area, 
yes.
    Senator Bill Nelson [continuing]. Those four areas that we 
talked about----
    Ambassador Harty. Uh-huh.
    Senator Bill Nelson. So, come September 30, now they have 
to have a passport. So, how are you going to handle all of 
that?
    Ambassador Harty. It is a transition phase. I don't want to 
speak for DHS just yet. We will, together, work through making 
sure people understand what the requirement is, do the public 
diplomacy work, assess this, and make sure this has worked. I 
would like to keep open the possibility that--well, I've got to 
work with DHS and see what exactly they are going to do on 
October 1, and make sure the public understands that.
    By that time, sir, I fully expect to have an additional 400 
bodies onboard, and that will help us continue to crank the 
work out.
    Senator Bill Nelson. Do you expect that you will delay the 
implementation past September 30?
    Ambassador Harty. It's not our expectation at this time, 
sir, but I certainly will keep an open mind on that subject.
    Senator Bill Nelson. Much to the chagrin of Secretary 
Chertoff.
    Ambassador Harty. We will certainly have a consultation 
about it, sir, if that is required.
    Senator Bill Nelson. All right. I think your people have 
the answer, back there, to the question that I had asked.
    [Pause.]
    Senator Bill Nelson. Do you want to just have your staff 
member testify?
    Ambassador Harty. That would do terrible things for 
retention, sir. [Laughter.]
    I'd prefer to do it myself. I will invite her, if I 
misspeak, to correct me--the initial projections were, in FY05, 
just under a million; in FY06----
    Senator Bill Nelson. This was for Western Hemisphere Travel 
Initiative.
    Ambassador Harty. Right.
    Senator Bill Nelson. A million in 2005.
    Ambassador Harty. Point-nine. Nine--point-nine. In 2006, 
1.8. And, originally, in 2007, 4 million; revised, given what 
we now have seen happen, to 6.5.
    But what I was failing to understand for a minute there 
was--these are, of course, projections--we don't ask people to 
tell us where they go or how often they will travel, and we 
don't exactly know whether or not these numbers bear fruit or 
whether--and it's the same thing I've mentioned earlier, though 
from a different angle, that the--what we also did not know was 
how many people would choose to apply for a passport just to 
have the document, with----
    Senator Bill Nelson. Yes.
    Ambassador Harty [continuing]. No travel intentions.
    Senator Bill Nelson. Yes, I understand that. You've made 
that quite clear.
    So, in 2005, you estimated that 900,000 people would apply 
for a passport due to the Western Hemisphere Initiative that 
otherwise had not had one.
    Ambassador Harty. Yes.
    Senator Bill Nelson. OK. How many did?
    Ambassador Harty. That's the part we don't track, sir.
    Senator Bill Nelson. You don't know that.
    Ambassador Harty. No, sir.
    Senator Bill Nelson. OK. And, in 2006, you estimated that 
1.8 million new people would apply for a passport that 
otherwise didn't have one, because they were just traveling 
within that Western Hemisphere area.
    Ambassador Harty. Right.
    Senator Bill Nelson. And then, in 2007, you said 4 million 
new people, and you've revised that up to 6.5.
    Ambassador Harty. That's right, sir. Now----
    Senator Bill Nelson. And the overall application of 
passports, you said earlier in your testimony, is somewhere 
around 12 million?
    Ambassador Harty. 12.1 million in 2006. This year, we 
expect a little over 17 million.
    Senator Bill Nelson. 17 million.
    Ambassador Harty. Yes, sir.
    Senator Bill Nelson. Of which 6\1/2\ million of the 17 
million are, in fact, new required passports as a result of 
Western Initiative.
    Ambassador Harty. An estimate, sir, but yes.
    Senator Bill Nelson. And when was that projection 
originally made, for 4 million in 2007--for 2007? When did you 
make that projection?
    Ambassador Harty. 2005 study, sir.
    Senator Bill Nelson. OK. Well, you knew it was coming down 
the road, that you were going to have a lot of new ones.
    For the record, in the 2008 budget request, what has been 
requested to address this expected new demand----
    Ambassador Harty. The 2008 budget request----
    Senator Bill Nelson [continuing]. For the Western 
Hemisphere?
    Ambassador Harty. Right. The 2008 budget request falls 
short, in that we requested 75 positions, but we are, of 
course, now in conversation with the Department about another 
400, so we're looking at 400 for FY07 fourth quarter, and 
another 400 in 2008 first quarter.
    Senator Bill Nelson. OKay. Now, share with the committee, 
on the $60 expedited fee, how you're going to go back--about 
determining if you are going to return all of those fees, or, 
if you're going to determine that you're not going to return 
all of them, how are you going to determine what was, in fact, 
expedited and what was not? What are your parameters?
    Ambassador Harty. Previously today, sir, I said I didn't 
want to misspeak on this subject. I have--we have had, for many 
years, a system in place for people to request a refund of 
their expedite fee. I don't know what is legally required 
before the Government can cut a check back. I will find out, 
and I will report that back to you, sir.
    I just know that I need help from our legal division on 
that.
    Senator Bill Nelson. The $97 application goes into the 
Treasury, is that correct?
    Ambassador Harty. Most of it, sir. The $97 includes the 
passport, the fee that is charged by the acceptance facility, 
as well as--well, the fee that is for the passport itself. The 
passport fee goes to the general treasury. If there is an 
expedite fee, that goes to the Department of State. Several 
years ago, we managed to--and the Congress gave us a passport 
surcharge fee, which is $18, and that comes to us, in the 
Bureau of Consular Affairs, to do what we do, with respect to 
passports.
    Senator Bill Nelson. OK. So, if the $60 expedite fee goes 
into the Department of State, would you not think that the 
Department of State has the authority, when a person, in fact, 
has not received the service of expediting their passport, that 
the Department of State has the authority to return that $60?
    Ambassador Harty. Since we have a program that does do 
that, sir, yes, I do think that.
    Senator Bill Nelson. OK.
    Ambassador Harty. How--the mechanics of it are what I am 
loathe to comment on without----
    Senator Bill Nelson. OK. What we want to find out is: What 
is going to be your criteria for what has been expedited and 
what has not, so those people get their 60 bucks back?
    Ambassador Harty. We have traditionally told people 2 to 3 
weeks for an expedite, sir. So, many, many, many people have 
gotten that--have gotten their passports expedited, so there 
will be people who don't need that service, or who have--who, 
in fact, paid for the service and got the service. So, we will 
do a review of how many cases where that's not the case.
    Senator Bill Nelson. Is it present policy that you just 
said that you consider an expedited passport 2 to 3 weeks?
    Ambassador Harty. Yes, sir.
    Senator Bill Nelson. OK. Is it logical for this committee 
to assume that, therefore, anyone with--who has not received 
their passport within that 2-to-3-week present policy of 
expediting will get their $60 back?
    Ambassador Harty. The policy discusses how long we have the 
passport actually in our hands, as opposed to in the lockbox or 
before the clerk of court mailed it to the lockbox, and so, in 
the parameters that you are describing, there's a little bit of 
leeway there, sir. I will work with our attorneys on this, as 
well, and come up with a policy.
    Senator Bill Nelson. Well, I think it's important that you 
come back and enunciate that policy to us, because everyone 
that was up here, their constituents are going to be calling 
them when they don't get their $60 back, and they're going to 
say, ``I didn't get my passport until 3 months later, and 
they're still keeping my 60 bucks.''
    Ambassador Harty. Right.
    Senator Bill Nelson. And when you come back and share with 
us your new policy, would you also tell us whether or not 
you're going to require people to ask for a refund or if you 
are going to do that on your own without them having to do 
that?
    Ambassador Harty. Yes, sir; I will do those things.
    Senator Bill Nelson. Do you think that, having gotten 
through the seasonal application bump, that we are going to see 
a decrease of applications?
    Ambassador Harty. Historically, that has been the case, 
sir. Yes; we do. We will watch this, as I have mentioned, every 
day to see if that is, or is not, the case.
    Senator Bill Nelson. There certainly appears to be plenty 
of evidence that it won't lessen, on the basis of everything 
that's been said here in the hearing.
    Ambassador Harty. The numbers are absolutely higher, but 
the pattern of when people apply seems to be holding consistent 
with previous years.
    Senator Bill Nelson. But certainly not when you overlay the 
Western Hemisphere Travel Initiative, and when you overlay what 
you said, that suddenly people want this prized possession of a 
passport as a means of identification.
    Ambassador Harty. That's why, in fact, sir, while our 
prediction, which, of course, is subject to the results of the 
study we're doing now, that's due out later this summer, our 
prediction is for 23 million next year. My desire is to staff 
for 26 million.
    Senator Bill Nelson. OK. Thank you. I'm sorry that you have 
to have these pointed questions.
    Ambassador Harty. No, no, sir. That's my job.
    Senator Bill Nelson. I understand that you think it's your 
job, but it's also your boss's job, too, to make sure that 
Americans don't get this riled up.
    As I went over to vote, I had a number of Senators come up 
to me who were aware of this hearing. Some of them, Senators 
from Vermont, Senators from Michigan, in addition to Senator 
Coleman, who you had heard from, from Minnesota. Detroit, 
Michigan, they have people going back and forth all the time to 
work.
    Ambassador Harty. Right.
    Senator Bill Nelson. You see the crisis there. In my State, 
back and forth all the time to the Bahamas----
    Ambassador Harty. Right.
    Senator Bill Nelson [continuing]. Other parts of the 
Caribbean. You see the potential. You can imagine what it's 
like in California, Arizona, New Mexico, and Texas, back and 
forth there. So, we're not--we'd better watch this one very, 
very carefully. And it is our responsibility in our oversight 
function to see that the executive branch of government is, in 
fact, performing; and so, we will hold in abeyance, in the 
meantime--we will hold in abeyance a formal hearing; in the 
meantime, we will have informal discussions with you as to how 
it is going.
    And thank you for coming up and spending the time that you 
have. And the information that we did not receive----
    Ambassador Harty. We will get----
    Senator Bill Nelson [continuing]. As requested by the----
    Ambassador Harty [continuing]. It to you----
    Senator Bill Nelson [continuing]. Senators, if you would 
share that with us, we would appreciate it.
    Ambassador Harty. Certainly. Thank----
    Senator Bill Nelson. Thank----
    Ambassador Harty [continuing]. You, sir.
    Senator Bill Nelson [continuing]. You very much.
    The meeting is adjourned.
    [Whereupon, at 4:52 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Press Release of Hon. John F. Kerry, U.S. Senator From Massachusetts

      passport delays are unacceptable, kerry tells secretary rice
    Washington, DC.--Senator John Kerry (D-Mass) has joined a 
bipartisan group of his colleagues to express concern regarding 
extensive delays in processing passports for millions of Americans. 
Kerry sent a letter to Secretary of State Condoleezza Rice, asking her 
to immediately develop a plan to deal with the backlog--which is 
estimated at nearly 2 million applications. The backlog was largely 
created by the new Western Hemisphere Travel Initiative, which requires 
U.S. citizens to have a passport when entering the United States while 
traveling from Mexico, Canada, the Caribbean, or Bermuda. The State 
Department has now had to suspend this requirement because of the 
backlogs; however, pending applications to travel abroad are still 
severely delayed.
    Kerry said the situation is hurting families and threaten imminent 
travel plans because of the delays, even when people have applied well 
in advance and followed the rules, which has forced some to either make 
expensive changes to their plans at the last minute or pay the State 
Department extra fees to expedite their application. Kerry signed the 
letter to Rice outlining his concerns and asking that the State 
Department waive the expedited fees and additional shipping costs.
    ``I am very concerned with these delays and wonder why the State 
Department was so unprepared for the upswing in the number of passport 
applications,'' Kerry said. ``It's unfair for our government to punish 
people with unreasonable delays and unforeseen costs when the problem 
lies with inefficiency at the State Department.''
    The letter signed by Kerry can be found at http://kerry.senate.gov/
newsroom/pdf/ricepassport6-18final.pdf.
                                 ______
                                 

Responses of Assistant Secretary Maura Harty to Questions Submitted by 
                          Senator Bill Nelson

    Question. What were the projections for passport demand following 
the enactment of the Western Hemisphere Travel Initiative? What were 
these projections based upon--the Department's internal projections, or 
the study provided by Bearing Point? Please provide both Bearing 
Point's and the State Department's internal projections for passport 
applications for 2005 to present as well as the number of actual 
passport applications.

    Answer. In 2003, the Department of State anticipated a possible 
requirement for passports for Western Hemisphere travel and began to 
plan for such an eventuality. The Department convened a working group, 
which included a number of agencies, to examine the diplomatic, legal, 
political, operational, and financial implications of removing the 
passport exemption for Western Hemisphere travel and reported their 
findings to Secretary Powell in May 2003. At that time, reliable data 
on the number of U.S. citizens traveling in the Western Hemisphere were 
not available, so the impact on passport workload was speculative. 
However, the working group correctly anticipated that the impact on 
workload would be significant and recommended that any passport 
requirement be rolled out in four stages, to flatten demand and provide 
sufficient preparation time. The four stages proposed were Central 
America and South America in 2005, the Caribbean in 2006, Mexico in 
2007, and Canada in 2009.
    In December 2004, WHTI was mandated legislatively as part of the 
Intelligence Reform and Terrorism Prevention Act (IRTPA). Rather than a 
4-year rollout, the legislation required that the Departments of State 
and Homeland Security develop a plan to implement the new requirement 
on or before January 1, 2008.
    By that time, an independent contractor, Bearing Point, had already 
been hired to project demand for passports associated with WHTI. In 
December 2003, Bearing Point reported that estimated demand associated 
with WHTI would be 9.2 million total for air/sea/land across a 3-year 
implementation period. In December 2004, they revised the estimate to 
4.4 million for air travel; and in October 2005, they revised the 
estimate to 1.5 million for sea travel. Bearing Point did not estimate 
total passport demand for any period. The estimated passport workload 
projections were made by our staff; Bearing Point's data was one of 
several sources used to project increases anticipated as a direct 
result of WHTI. The workload assumptions used in the Bearing Point 
study were based on an implementation schedule that would be phased in 
between 2005-08. The actual implementation schedule changed from those 
original assumptions to the air phase start date of January 2007.
    The Department of State's initial projections following the 
enactment of WHTI in the IRTPA legislation in December 2004 were 
presented to OMB in January 2005, as follows:

------------------------------------------------------------------------
                                    Estimated total
           Fiscal year                 passport          WHTI-related
                                     applications        applications
------------------------------------------------------------------------
2005............................  10.5 million......  900,000.
2006............................  12.0 million......  1.8 million.
2007............................  15.0 million......  4 million.
------------------------------------------------------------------------


    This and all subsequent budget requests included funds for 
additional staff, training, facilities, passport books, and passport 
production supplies.
    Projections were revised again in April 2006 and March 2007, as 
follows:

------------------------------------------------------------------------
                                    Estimated total
           Fiscal year                 passport          WHTI-related
                                     applications        applications
------------------------------------------------------------------------
2007 (4/06).....................  16.2 million......  5.2 million.
2007 (3/07).....................  17.7 million......  Not estimated.
------------------------------------------------------------------------


    Actual receipts for FY 2005-FY 2007 are as follows:

                              [In millions]

                                                         Actual receipts
FY 2005...........................................................  10.4
FY 2006...........................................................  12.3
FY 2007 (to date).................................................  10.5

    In October 2005, another study conducted by Bearing Point in July 
estimated that approximately 13 million U.S. citizens who did not 
possess passports crossed the land borders in the preceding year. The 
proportions were split between 40 percent crossing the border with 
Mexico and 60 percent to Canada.
    Bearing Point's projections for land travel, estimated in 2005 when 
the land portion of WHTI was required by law to be effective no later 
than January 1, 2008, were as follows:

                              [In millions]

        Year                                            Border crossings
July 2005-July 2006...............................................   8.0
July 2006-July 2007...............................................   5.7
July 2007-July 2008...............................................   5.6

    Shortly thereafter, the law was revised to allow extension until 
June 2009, and to require that a lower cost alternative to the book-
style passport be developed. In January 2006, as part of the Rice/
Chertoff Initiative, DHS, and State announced that a lower cost 
passport card would be developed.

    Question. When did the Department of State first realize that there 
was a backlog of applications at the lockbox operation? What were the 
first measures taken by the State Department and the contractor in 
response to the backlog and when were those measures taken? Has the 
lockbox contractor performed adequately? If the government believes the 
contractor did not perform properly, are there any penalties under the 
contract?

    Answer. In January 2007, the lockbox service provider first started 
reporting higher daily receipts than dispatches to the passport 
agencies; therefore, their processing time increased from the standard 
24-hour turnaround. The first measure taken by the State Department in 
partnership with the U.S. Treasury was to require the lockbox service 
provider to increase staffing to meet the demand. In the opinion of the 
U.S. Treasury, who manages the lockbox contract, the service provider 
responded adequately but not before the backlog at the lockbox 
increased to just under 1 million applications.
    The Department of the Treasury may, under the terms of their 
agreement, penalize the contractor for the cost to the U.S. Government 
for the delay in depositing the fees into the Treasury.

    Question. When do you expect the passport application turnaround 
time to return to normal?

    Answer. The Department has developed a plan to eliminate the 
current workload of passports and to return the processing time to our 
normal 6 weeks timeframe by the end of 2007. In addition to an 
aggressive hiring plan, we have called for volunteers from within the 
Department and overseas to serve in our passport agencies. This 
additional workforce will enable the passport agencies to concentrate 
their work effort on the routine applications that have been in the 
system the longest while continuing to process incoming applications 
for expedited service. By reducing the number of applications in our 
system and bringing more passport specialists onboard, we can work to 
return our processing time to our standard of 6 weeks. We will also 
train other Department employees to accept applications from the public 
at counter agencies and to perform customer support and other vital, 
nonadjudicatory services.
    With the additional adjudicators, other volunteers, and new 
employees in place, and with no unexpected rise in applications, CA 
expects to return to our traditional processing time by the end of 
calendar year 2007.

    Question. Following the suspension of the WHTI rule for air 
travelers on June 7, what measures have been taken by State and the 
Department of Homeland Security to ensure that the public is adequately 
informed about what documentation they will need to prove that they 
have applied for a passport?

    Answer. The U.S. Departments of State and Homeland Security 
announced on June 8, 2007, that U.S. citizens traveling to Canada, 
Mexico, Bermuda, or other countries in the Caribbean region who have 
applied, but not received their passports, can reenter the United 
States by air by presenting a government-issued photo identification 
and Department of State official proof of application for a passport. 
This transition period is in effect through September 30, 2007.
    Members of my staff working with DHS have helped to communicate the 
flexibility being shown to American travelers to the airlines serving 
those destinations. We have posted information on our Web site about 
entry requirements. In our updates and conversations with your offices 
and applicants, we are advising travelers to contact their airlines to 
confirm boarding requirements. We have done scores of media interviews, 
radio, print, and television. We have even put a notice on ``YouTube.'' 
Finally we have worked with IATA to make continual updates to the 
Timatic system to ensure that airline employees are aware of changes 
made by countries such as Mexico, Bermuda, the Dominican Republic, 
Aruba, and Jamaica to recognize and accept the USG's flexible policy.

    Question. What steps are being taken now, and in the FY 2008 budget 
request, to address the expected demand after the next phase of WHTI 
goes into effect? What are the Department's plans to ensure that the 
backlog does not continue as the Western Hemisphere Travel Initiative 
is fully implemented?

    Answer. Passport demand will continue to grow as we move closer to 
full implementation of WHTI. We have another workload study underway to 
refine our demand estimates for FY 2008 through FY 2010.
    We are building capacity within the current system. We are adding 
400 additional government staff by the end of FY 2007, and plan to hire 
another 400 in the first quarter of FY 2008. We are expanding the 
physical structure of existing facilities, especially at the National 
Passport Center and the Miami Passport Agency, and streamlining our 
processes where possible. We are also ramping up the Arkansas Passport 
Center, our new mega processing center, to reach its full capacity by 
the end of CY 2007 of personalizing and mailing out 10 million 
passports annually. We have plans in place to establish a second 
contract production center in Tucson, Arizona, next year. We are 
currently evaluating our options to meet projected demand and will 
explore aggressively expansion projects to ensure that we can provide 
Americans with passports in a timely and secure manner.
    To meet long-term demand growth, we quickly formed a working group 
to review earlier plans for expansion and will be reporting to the 
committee as requested with a formal Strategic Plan.

    Question. How many of the millions of Americans who applied for 
passports since implementation of the air phase of WHTI paid for 
expedited service they did not get? What measures beyond those 
currently in place is the Department planning to take to ensure that 
those Americans get their fees for expedited service back?

    Answer. The Department is currently reviewing procedures to refund 
expedite fees. We are evaluating the best process for returning funds 
to applicants. We anticipate we will be able to publicize the new 
procedures on our Web site in the next several days. Everyone who 
requests expedited service had their application moved to the front of 
the line. Regrettably, that did not always result in completion in the 
stated timeframe. As our Web site states, anyone who paid the expedite 
fee and does not believe they received expedited service can apply for 
a refund.

    Question. A copy of all reports or surveys prepared by Bearing 
Point or other private contractors to estimate the number of passport 
applications (including high, middle, and low-range projections) 
resulting from the WHTI, and a thorough explanation of how the 
Department of State reached its final estimates, including all other 
factors that the Department used to reach those estimates.

    Answer. We expect to submit to you within a matter of days the 
Bearing Point reports and surveys; after completing the Department of 
State's formal procedures for the release of nonpublic information to 
congressional oversight committees.
    In January 2005, following the formal enactment of WHTI in the 
IRTPA, the Department drew upon the Bearing Point data, our historical 
trends in passport demand, and consultations with the Departments of 
Homeland Security and Commerce to present initial projections to OMB.
    It is important to note that during this process numerous critical 
variables changed several times. These included: (1) The introduction 
of a passport card concept and (2) implementation timelines that were 
modified in terms of content (air and sea vs. land, changed to air vs. 
land and sea) and actual timing. The Bearing Point study did not take 
these changes into account because it predated them.
    Our final estimates for FY 2007 demand were thus based primarily 
upon consultations as previously described, information in Bearing 
Point's final October 2005 report, and evaluations of prior year 
figures for passport demand. Although we anticipated demand would 
follow traditional cycles and increase in the second quarter of FY 
2007, we did not anticipate the supercommpressed demand that we 
actually experienced in the first few months of this year. We believe 
publicity and confusion caused by the phased implementation of WHTI 
likely caused some to apply in advance of actually needing 
documentation to travel, effectively shifting land border passport 
demand forward. Given legislative changes regarding the deadline for 
implementing the land-phase of WHTI and the Rice-Chertoff announcement 
regarding the introduction of a lower cost passport card, final 
estimates for FY 2007 did not include land border passport demand.
    We continue to review and to update our estimates for passport 
demand. Another significant factor which we are now examining is what I 
have heretofore referred to as the ``unknowable'' element of demand 
associated with nontravel related desire for documentation.

    Question. The Department of State's monthly projections for 
passport demand, beginning in 2005 through the most recent data 
available, and a side-by-side comparison of those projections and the 
number of actual passport applications (incorporating in this response 
the information requested by Senator Lugar in this second question for 
the record submitted on June 19, 2007).

    Answer. See attached chart.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Question. An explanation of the initial measures taken by the 
lockbox contractor in response to the backlog at the lockbox, including 
when those measures were taken.

    Answer. As soon as we became aware of the backlog at the Citibank 
lockbox, we worked with the Department of Treasury and Citibank to 
eliminate it. Several enhancements in staffing, equipment, facilities, 
and technology were implemented expeditiously to improve passport 
application processing. The specific actions taken by Citibank in 
cooperation with State and Treasury included the following.
                        manual processing needs
  <bullet> Hired an additional 381 employees by May to reach a total of 
        1,062 lockbox employees.
  <bullet> Established a new data-processing center in Buffalo, NY.
  <bullet> Hired a management team and more than 100 employees for data 
        entry of passport application information.
             additional equipment, technology, and hardware
  <bullet> Increased the number of application image scanners from 8 to 
        17.
  <bullet> Increased application server capacity, data storage, and 
        network bandwidth to accommodate increased volume.
  <bullet> Added 100 desktop computer workstations and two printers to 
        support increased staffing.
                     expanded processing facilities
  <bullet> Leased an additional 5,300 sq. ft. building in Delaware for 
        mailroom and application storage on March 13, 2007, to enable 
        three shifts to operate 24/7.
  <bullet> Converted the employee lunchroom within the Delaware primary 
        facility into a secure storage area for applications.
  <bullet> Added modular units to house employee amenities outside 
        primary building (2,500 sq. ft.).
  <bullet> Added the Buffalo site (4,500 sq. ft.) on February 6, 2007, 
        with three shifts.
               leveraged process improvement technologies
  <bullet> Purchased new software to deliver greater keying capacity 
        and improve the quality of data entry,
  <bullet> Implemented a new process to scan and batch applications 
        without separating items in the application package.

    Question. An account of exactly when more employees were hired to 
help reduce the application backlog, including month by month 
calculations of hiring practices for 2006 and 2007.

    Answer. The attached charts track passport staff hired to help 
reduce the application backlog and show a month-by-month calculation of 
hiring practices.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. With regard to the Department of State's plan of action 
for reducing passport processing time, an outline of the target 
recruitment level for volunteers, the qualifications necessary to 
become a volunteer, and the amount of time necessary to train new 
volunteers and employees recruited to assist with the passport 
application backlog.

    Answer. The Department has developed an action plan to reduce the 
backlog of passport applications in our system and return to our 
traditional service standard for routine applications of 6 to 8 weeks 
by September 30, 2007. We will achieve this goal through a combination 
of increased personnel resources, targeted work transfers, and 
maximized production capacity at our mega-processing centers.
    The Department estimates that we will require some 300 additional 
adjudicators to meet the target. Toward that end, we have mobilized 
Department personnel, including individuals currently assigned to posts 
overseas. We have already deployed experienced adjudicators to task 
forces at the National Passport Center in Portsmouth, NH, the New 
Orleans Passport Agency, and in Washington, DC. We will also send 
officers to other regional passport centers around the country.
    At the same time, we are expediting the hiring of approximately 400 
new full-time passport specialists during the fourth quarter of FY 
2007; we will work to make them as productive as possible as quickly as 
possible.
    We have used various sources to identify qualified officers who 
will work for varying periods of time between now and September 30:

  <bullet> Two hundred Presidential Management Fellows, Career Entry 
        Program participants, and entry-level officers currently 
        working in bureaus throughout the Department will be deployed 
        to NPC, New Orleans, and the Washington Passport Agency for the 
        remainder of the summer to adjudicate passport applications. 
        Most will have been trained and begun work by either July 16 or 
        July 23.
  <bullet> Forty-six retired State Department employees are now working 
        on a WAE basis; we are looking to hire 50-100 more.
  <bullet> Forty-five Foreign Service Officers who are assigned 
        overseas are coming home temporarily to adjudicate passports at 
        regional passport agencies. The first group arrived July 16.
  <bullet> Twenty experienced consular officers who returned to take a 
        3-week advanced training course in Washington will instead 
        adjudicate passports, most in New Orleans.
  <bullet> We are postponing the nonhard language training or post 
        assignment of 120 entry-level officers who will complete 
        general consular training this summer, so that they can stay to 
        adjudicate passport applications. The first of these began 
        adjudicating passports on July 10.

    The Department has recruited among its qualified employees for 
personnel to serve as passport adjudicators. Employees who don't 
qualify as adjudicators are volunteering to assist in various other 
capacities (answering telephone inquiries, accepting documents at 
passport agency counters, and other nonadjudicatory responsibilities).
    In order to serve as adjudicators, employees must meet the hiring 
criteria for passport adjudicators and successfully complete the 
Passport and Nationality module of the basic Consular Course (for 
Foreign Service officers) or the Passport Services Directorate's 
National Training Program.
    For adjudicators with some prior experience, the Bureau of Consular 
Affairs (CA) has also provided refresher training on citizenship and 
nationality regulations along with domestic training in the specialized 
computer systems we use for passport adjudication. For personnel who 
will perform customer service tasks, CA has provided training on 
citizenship issues, document acceptance requirements, fees, and related 
matters, so employees can quickly be productive in their new roles. 
Personnel also receive onsite training in their specific assigned 
duties once they report to the passport agency/center.

    Question. Consular management mechanisms the Department of State 
has put in place to maintain the accuracy and security of passport 
adjudications as these new employees and volunteers came onboard, 
including the projected expectation for increases in fraudulent 
passport applications during this high-volume adjudication period.

    Answer. Information contained on all passport applications is 
automatically checked against several internal and interagency 
databases, which immediately identify individuals who may not be 
entitled to a U.S. passport. Every passport application is scrutinized 
by a trained Passport Adjudicator, who is an expert in citizenship law 
and passport fraud detection. Passport Adjudicators have at their 
automated systems and a variety of passport fraud reference to aid them 
in making a final determination. Their tools include a database that 
identifies those individuals who have previously attempted to 
fraudulently obtain a U.S. passport. All of these checks are performed 
and procedures followed regardless of the urgency to issue the 
passport.
    A robust fraud prevention program is already in place to ensure 
fraudulent applications are identified. This program is managed at each 
agency and center by a Fraud Prevention Manager (FPM) dedicated to 
training Passport Adjudicators and identifying fraud trends and 
techniques. Passport Adjudicators refer suspected fraudulent passport 
applications to the FPM, who in turn refers cases requiring law 
enforcement investigation to the Bureau of Diplomatic Security, as 
warranted.
    The Department is supplementing the existing fraud prevention 
program with additional resources to ensure the integrity of the U.S. 
passport is preserved. All personnel on the adjudication task forces 
must, at a minimum, pass the passport section of the basic consular 
course and must attend a mandatory seminar prior to being assigned to 
work. All shifts are supervised by a highly qualified, experienced 
passport employee who can address any question and provide expert 
guidance on all passport fraud-related issues that an adjudicator may 
encounter. In addition, senior fraud experts from Consular Affairs' 
Fraud Prevention Program and Passport Services' Office of Passport 
Integrity are also deployed to each task force. These individuals 
supplement the existing pool of FPMs to train, mentor, and provide 
guidance to adjudicators.

    Question. An account of your discussions of the passport backlog, 
including requests for additional resources, with Secretary of State 
Condoleezza Rice, then-Deputy Secretary of State Robert Zoellick, 
Deputy Secretary of State John Negroponte, and Under Secretary of State 
for Management, Henrietta Fore.

    Answer. Secretary Rice and Under Secretary Fore have taken a clear 
interest in providing CA the resources necessary to meet the current 
challenge. Secretary Rice herself contacted DHS Secretary Chertoff by 
phone and again during an in-person meeting to work out the modalities 
of the flexible accommodation for reentry into the United States. 
Deputy Secretary Negroponte and Under Secretary Fore on several 
occasions have publicly exhorted the Department to provide needed 
volunteers for passport task force duty.

    Question. An outline of the attrition rate for full-time government 
employees and contract employees who contribute to passport application 
processing.
    The attrition rate among contract employees involved in passport 
processing about 40 percent annually. The attrition rate among full-
time government employees has averaged roughly 7 percent for the last 
two fiscal years (7.14 percent for FY 2007; 6.95 percent for FY 2006).

    Question. The total number of Americans who paid the expedited 
service fee for passport processing since the implementation of WHTI 
and an explanation of how the Department of State and the Department of 
Treasury will facilitate the refund of fees for those who did not 
receive this expedited service.

    Answer. So far in FY 2007, from October 1, 2006, through July 11, 
2007, State has received approximately 4.3 million passport 
applications for which an expedited fee was paid. Every one of these 
applicants who paid the expedite fee did, in fact, receive expedited 
service in that his/her application was automatically given a higher 
priority in the queue. We process those applications more quickly than 
those for standard passports. To further ensure expedited service, CA 
has been paying for expedited passports to be mailed via Federal 
Express and has not, as had been past practice, asked customers to 
cover this additional cost.
    The Department has reviewed the issue of refunds and decided to 
maintain our longstanding policy of inviting any individuals who paid 
for and believes they did not receive expedited service to request a 
refund. We will grant refunds where required.

    Question. An explanation of the measures you are taking to 
prioritize passport applications for citizens who are traveling to 
countries outside of WHTI.

    Answer. We routinely screen our pending work to prioritize by 
departure date and destination. Also, all customers who contact us to 
inquire about the status of their applications are asked for their 
destination and departure date, so we can ensure that their inquiries 
are given timely attention.
                                 ______
                                 

Responses of Assistant Secretary Maura Harty to Questions Submitted by 
                         Senator Richard Lugar

    Question. I note that under the Western Hemisphere Travel 
Initiative (WHTI) there is a credit-card-sized ``passport card'' that 
is envisioned to serve in lieu of a traditional passport booklet. The 
card could be used for those U.S. citizens crossing our borders by land 
and sea but not by air. What can you tell us about the status of the 
card, particularly as it relates to possible production delays that we 
have seen with passports?

    Answer. The Department of State has an ambitious and aggressive 
schedule to develop the card as soon as possible. The Request for 
Procurement to industry was issued on May 25, and we expect to begin 
testing product samples this summer. In accordance with testing 
requirements established in the certification by the National Institute 
of Standards and Technology, we will conduct the full range of 
security, durability, and privacy tests on the passport card and 
protective sleeve to ensure we are issuing the best and most secure 
card to the American public. Absent any technical challenges that may 
arise as a result of testing, we expect to begin issuing the cards to 
the public as soon as possible in 2008. We will issue a notice in the 
Federal Register when State is ready to begin accepting applications 
for the passport card and will, of course, conduct a robust public 
outreach campaign to inform particularly the border resident 
communities.
    We will continue to build up both physical plant and personnel 
numbers in order to be able to meet demand for passports and the 
passport card.

    Question. Please provide on a month by month basis the following 
information, starting from June 2006 to July 2007.

  <bullet> The estimated number of passport applications that State 
        provided Citigroup.
  <bullet> The actual number of passport applications Citigroup 
        received.
  <bullet> The number of applications Citigroup sent to State.
  <bullet> The difference between what Citigroup received and sent to 
        State, i.e., Citigroup's backlog.
  <bullet> The number of lockbox staff.
  <bullet> The number of passports State adjudicated.
  <bullet> The difference between incoming applications/adjudications 
        (i.e., the backlog).
  <bullet> The number of adjudication staff.
  <bullet> The number of passport applications State referred to 
        Diplomatic Security for possible fraud.

    Answer. The Department does not have the information on the number 
of lockbox staff because this contract is administered by the 
Department of Treasury, but we have reached out to Treasury to see if 
we can obtain that information. The attached chart includes the other 
information you requested, with projections through July 2007, but 
actual numbers only through May 2007 because we are not yet at the end 
of June.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. On a somewhat related note, last Friday, President Bush 
signed legislation that Senator Kennedy and I drafted, and which was 
cosponsored by many of the members of this committee.
    The legislation increased from 50 to 500 the number of Special 
Immigrant Visas available for Iraqis and Afghanis who had served with 
the United States as translators/interpreters.

  <bullet> What is the status of these visas?
  <bullet> How many of the 500 have been issued?
  <bullet> Where were they issued?
  <bullet> Has the recipient entered the U.S.?
  <bullet> What current obstacles remain regarding these visas, either 
        within the U.S. Government or overseas?

    Answer. The visas that were noncurrent before the legislation was 
passed are currently being processed at the National Visa Center (NVC). 
NVC has created a special unit that is corresponding directly with the 
translators and their sponsors and is assisting them to assemble the 
documents--including proof of identity--which they will need for these 
visas to be adjudicated. The instruction packets were sent out on 
Monday, June 18, the first work day after the President signed the 
legislation. One translator has responded with all of the documents 
required for visa processing. NVC is currently scheduling an 
appointment for that applicant's interview with the U.S. Embassy in 
Amman, Jordan.
    The Department has been able to issue 36 SIVs (along with 32 
derivative visas issued to dependents). Thirty-three of the 36 primary 
SIVs were issued by the U.S. Embassy in Amman, Jordan; the remainder 
were issued by the U.S. Embassy in Islamabad, Pakistan. All of the 
visas that have been issued were treated as ``expedites''--the basic 
data entry at NVC took only 3-5 days before the cases were sent to post 
for adjudication.
    The information about whether the recipients have entered the 
United States would be available from DHS' Office of Customs and Border 
Protection.
    Security Advisory Opinions (SAOs) are likely to be an issue in many 
cases, but we do not expect SAOs to delay the majority of the 
participants. In addition, contact is largely dependent upon e-mail 
because many have redeployed or relocated outside Iraq; international 
mail does not function within Iraq. Problems with naming conventions 
and fraudulent Iraqi documents also present a challenge.

    Question. One of the biggest complaints we have all received from 
constituents throughout this is the lack of accurate feedback regarding 
the status and even the location of an individual's passport 
application. What improvements are you making to provide more real-time 
information regarding the status of individual applications? How are 
applications currently sorted for adjudication--by the date the 
application was received? By departure date? Are all completed 
passports now being sent via overnight mail to the applicants?

    Answer. The initial problem was an unprecedented spike, which 
created a backlog of unopened applications in mailed envelopes at our 
lockbox facility. We cannot confirm receipt of a passport application 
until it is data-entered into our Travel Document Issuance System 
(TDIS). Accurate status reports could not be provided to many people. 
Applications are now being processed by our lockbox and entered into 
TDIS very quickly.
    Concurrently, our National Passport Information Center (NPIC) began 
receiving enormous numbers of calls daily. NPIC expedited its hiring 
efforts, adding over 400 Customer Service Representatives (CSRS); added 
space; increased technical capability; and expanded its service hours. 
We also established two temporary phone task forces--one at the 
Department and one at the Kentucky Consular Center--working extended 
hours weekdays and weekends. To ensure that customers receive accurate 
data, we are looking closely at our training program and will work with 
our contractor to see that new employees fully understand how to 
identify and convey status reports.
    Previously, applications appeared on the online status check only 
after the application was batched at the agency, which could take 
several days. The process has been improved so that the application now 
appears on the online status check at the earliest stage on its entry 
into TDIS. The online status information now updates four times a day 
rather than once a day and is available 24 hours a day, 7 days a week. 
The information obtained in the online status check includes all of the 
information needed by DHS for a land or sea border crossing from 
Canada, Mexico, or the Bahamas. The online status check will also let 
the customer know that the passport has been sent.
    Incoming applications are sorted by the date they are received. 
Traditionally, completed passports are sent by Priority Mail with 
delivery confirmation, unless the applicant requests and pays for 
express mailing. However, we utilize without charge whatever means 
necessary, including next-day, same-day, or courier delivery services 
to ensure that customers make their trips.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
